No. 20-1088
================================================================================================================

In The

Supreme Court of the United States
---------------------------------♦--------------------------------DAVID and AMY CARSON, as parents and
next friends of O.C., and TROY and ANGELA NELSON,
as parents and next friends of A.N. and R.N.,
Petitioners,
v.
A. PENDER MAKIN, in her official capacity as
Commissioner of the Maine Department of Education,
Respondent.
---------------------------------♦--------------------------------On Writ Of Certiorari To The
United States Court Of Appeals
For The First Circuit
---------------------------------♦--------------------------------JOINT APPENDIX
---------------------------------♦--------------------------------MICHAEL E. BINDAS
Counsel of Record
INSTITUTE FOR JUSTICE
600 University Street
Suite 1730
Seattle, WA 98101
mbindas@ij.org
(206) 957-1300
Counsel for Petitioners

AARON FREY
Attorney General
SARAH FORSTER
Assistant Attorney General
Counsel of Record
CHRISTOPHER C. TAUB
Chief Deputy Attorney General
OFFICE OF THE
ATTORNEY GENERAL
sarah.forster@maine.gov
christopher.c.taub@maine.gov
(207) 626-8800
Counsel for Respondent

[Additional Counsel Listed On Inside Cover]
===========================================================================================
Petition For Writ Of Certiorari Filed February 4, 2021
Petition For Writ Of Certiorari Granted July 2, 2021
================================================================================================================
COCKLE LEGAL BRIEFS (800) 225-6964
WWW.COCKLELEGALBRIEFS.COM

KELLY SHACKELFORD
LEA PATTERSON
FIRST LIBERTY INSTITUTE
2001 W. Plano Parkway
Suite 1600
Plano, TX 75075
MICHAEL K. WHITEHEAD
JONATHAN R. WHITEHEAD
WHITEHEAD LAW FIRM LLC
229 S.E. Douglas Street
Suite 210
Lee’s Summit, MO 64063

ARIF PANJU
INSTITUTE FOR JUSTICE
816 Congress Avenue
Suite 960
Austin, TX 78701
KIRBY WEST
INSTITUTE FOR JUSTICE
901 N. Glebe Road
Suite 900
Arlington, VA 22203

JEFFREY THOMAS EDWARDS
PRETI FLAHERTY BELIVEAU
& PACHIOS, LLP
One City Center
P.O. Box 9546
Portland, ME 04112
Counsel for Petitioners

i
TABLE OF CONTENTS
Page
Docket Entries, Carson v. Makin, No. 19-1746
(1st Cir.) .....................................................................1
Docket Entries, Carson v. Makin, No. 1:18-cv00327-DBH (D. Me.) ..................................................4
Complaint (filed Aug. 21, 2018) ..................................11
Exhibit 1 to Stipulated Record, Maine Attorney
General Opinion (Jan. 7, 1980) (filed Mar. 12,
2019) ........................................................................35
Joint Stipulated Facts (filed Mar. 15, 2019) ...............69
MATERIALS PRODUCED IN
APPENDIX TO THE WRIT OF CERTIORARI
Opinion of the United States Court of Appeals for
the First Circuit (October 29, 2020)........... Pet. App. 1
Judgment of the United States Court of Appeals
for the First Circuit (October 29, 2020) .... Pet. App. 61
Decision and Order of the United States District
Court for the District of Maine (June 26,
2019) .......................................................... Pet. App. 63
Judgment of the United States District Court for
the District of Maine (June 26, 2019) ...... Pet. App. 74

1
DOCKET ENTRIES
Carson, et al. v. Makin
Case No. 19-1746
United States Court of Appeals for the First Circuit
Date Filed Document Description
10/01/2019 APPENDIX filed by Appellants Amy
Carson, David Carson, Alan Gillis,
Judith Gillis, Angela Nelson and Troy
Nelson. Number of volumes: 1. Number
of copies: 5. Certificate of service dated
09/30/2019. [19-1746] (GRC) [Entered:
10/01/2019 04:54 PM]
10/02/2019 APPELLANTS’ BRIEF filed by
Appellants Amy Carson, David Carson,
Alan Gillis, Judith Gillis, Angela Nelson
and Troy Nelson. Certificate of service
dated 09/30/2019. Nine paper copies
identical to that of the electronically
filed brief must be submitted so that
they are received by the court on or
before 10/09/2019. Brief due 10/30/2019
for APPELLEE Pender Makin. [19-1746]
(AMM) [Entered: 10/02/2019 04:38 PM]
10/31/2019 APPELLEE’S BRIEF filed by Appellee
Pender Makin. Certificate of service
dated 10/30/2019. Nine paper copies
identical to that of the electronically
filed brief must be submitted so that
they are received by the court on or
before 11/07/2019. Reply brief due
11/20/2019 for APPELLANT Amy
Carson, David Carson, Alan Gillis,
Judith Gillis, Angela Nelson and Troy

2
Nelson. [19-1746] (AMM) [Entered:
10/31/2019 12:40 PM]
11/20/2019 REPLY BRIEF filed by Appellants Amy
Carson, David Carson, Alan Gillis,
Judith Gillis, Angela Nelson and Troy
Nelson. Certificate of service dated
11/20/2019. Nine paper copies identical
to that of the electronically filed brief
must be submitted so that they are
received by the court on or before
11/25/2019. [19-1746] (AMM) [Entered:
11/20/2019 04:57 PM]
01/08/2020 CASE argued. Panel: David J. Barron,
Appellate Judge; David H. Souter,
Associate Supreme Court Justice and
Bruce M. Selya, Appellate Judge.
Arguing attorneys: Vivek Suri for US,
Timothy Keller for Angela Nelson, David
Carson, Amy Carson, Alan Gillis, Judith
Gillis and Troy Nelson and Sarah A.
Forster for Pender Makin. [19-1746]
(DJT) [Entered: 01/08/2020 12:57 PM]
06/30/2020 CITATION of supplemental authorities
pursuant to Fed. R. App. P. 28(j) filed by
Appellants Amy Carson, David Carson,
Alan Gillis, Judith Gillis, Angela Nelson
and Troy Nelson. Certificate of service
dated 06/30/2020. [19-1746] (TK)
[Entered: 06/30/2020 06:06 PM]
07/03/2020 RESPONSE to citation of supplemental
authorities pursuant to Fed. R. App. P.
28(j) [6349574-2] filed by Appellee
Pender Makin. Certificate of service

3
dated 07/03/2020. [19-1746] (CCT)
[Entered: 07/03/2020 09:12 AM]
10/29/2020 OPINION issued by David J. Barron,
Appellate Judge; David H. Souter,*
Associate Supreme Court Justice and
Bruce M. Selya, Appellate Judge.
Published. *Hon. David H. Souter,
Associate Justice (Ret.) of the Supreme
Court of the United States, sitting by
designation. [19-1746] (GRC) [Entered:
10/29/2020 03:04 PM]
10/29/2020 JUDGMENT entered: This cause came
on to be heard on appeal from the
United States District Court for the
District of Maine and was argued by
counsel. Upon consideration whereof, it
is now here ordered, adjudged and
decreed as follows: The judgment of the
district court is affirmed. [19-1746]
(GRC) [Entered: 10/29/2020 03:07 PM]
11/19/2020 MANDATE issued. [19-1746] (GRC)
[Entered: 11/19/2020 04:05 PM]

4
DOCKET ENTRIES
Carson, et al. v. Makin
Case No. 1:18-cv-00327-DBH
United States District Court for the District of Maine
Date Filed Docket Document Text
No.
08/21/2018 1

COMPLAINT against ROBERT
G HASSON, JR PAYMENT OF
FILING FEE DUE WITHIN
48 HOURS. IF FILING FEE
IS BEING PAID WITH A
CREDIT CARD COUNSEL
ARE INSTRUCTED TO
LOGIN TO CMECF AND
DOCKET Case Opening
Filing Fee Paid FOUND IN
THE Complaints and Other
Initiating Documents
CATEGORY. CHECK
PAYMENTS DUE WITHIN 48
HOURS., filed by ANGELA
NELSON, DAVID CARSON,
AMY CARSON, JUDITH
GILLIS, TROY NELSON, ALAN
GILLIS. (Service of Process
Deadline 11/19/2018) Fee due by
8/23/2018.(bfa) (Entered:
08/21/2018)

09/12/2018 8

ANSWER to 1 Complaint,, by
ROBERT G HASSON,
JR.(FORSTER, SARAH)
(Entered: 09/12/2018)

5
03/12/2019 24

LOCAL RULE 56(h)
STIPULATED RECORD by
AMY CARSON, DAVID
CARSON, ALAN GILLIS,
JUDITH GILLIS, ANGELA
NELSON, TROY NELSON.
(Attachments: # 1 Exhibit 1 Opinion of Attorney General
Richard S. Cohen, # 2 Exhibit 2 Def.’s Responses to Pls.’
Requests for Production, # 3
Exhibit 3 - Def.’s Responses to
Pls.’ Interrogatories, # 4 Exhibit
4 - Def.’s Responses to Pls.’
Requests for Admissions, # 5
Exhibit 5 - Def.’s Deposition of
David Carson, # 6 Exhibit 6 Def.’s Deposition of Judith E.
Gillis, # 7 Exhibit 7 - Def.’s
Deposition of Troy Nelson, # 8
Exhibit 8 - Def.’s Deposition of
Jeffrey Benjamin 30(b)(6), # 9
Exhibit 9 - Exh. 12 to Benjamin
Dep. - Notice of Dep. of BCS
30(b)(6), # 10 Exhibit 10 - Exh.
13 to Benjamin Dep. - BCS
Teacher Contract, # 11 Exhibit
11 - Exh. 14 to Benjamin Dep. BCS Faculty Manual, # 12
Exhibit 12 - Exh. 15 to
Benjamin Dep. - BCS Student
Handbook, # 13 Exhibit 13 Exh. 16 to Benjamin Dep. - BCS
Financial Aid Application, # 14
Exhibit 14 - Exh. 17 to

6
Benjamin Dep. - Email
Correspondence, # 15 Exhibit 15
- Exh. 18 to Benjamin Dep. BCS Application for Admission,
# 16 Exhibit 16 - Def.’s
Deposition of Martha Boone
30(b)(6), # 17 Exhibit 17 - BCS
Bible Curriculum Grades 1-8, #
18 Exhibit 18 - BCS Bible
Curriculum for High School, #
19 Exhibit 19 - BCS Earth
Sciences Curriculum, # 20
Exhibit 20 - BCS 4th Grade
Social Studies Curriculum, # 21
Exhibit 21 - BCS 5th Grade
Social Studies Curriculum, # 22
Exhibit 22 - BCS 9th Grade
Social Studies Curriculum, # 23
Exhibit 23 - BCS 10th Grade
Government Curriculum, # 24
Exhibit 24 - Def.’s Deposition of
Denise LaFountain 30(b)(6), #
25 Exhibit 25 - Exh. 5 to
LaFountain Dep. - Notice of Dep.
of TA 30(b)(6), # 26 Exhibit 26 Exh. 6 to LaFountain Dep. - TA
Admissions Policy, # 27 Exhibit
27 - Exh. 7 to LaFountain Dep. TA Teacher Employment
Agreement, # 28 Exhibit 28 Exh. 8 to LaFountain Dep. - TA
Student/Parent Handbook, # 29
Exhibit 29 - Exh. 9 to
LaFountain Dep. - TA Faculty
Handbook, # 30 Exhibit 30 -

7
Exh. 10 to LaFountain Dep. - TA
Family Covenant, # 31 Exhibit
31 - Exh. 11 to LaFountain Dep.
- TA 5 Year Interim Evaluation
Report, # 32 Exhibit 32 - TA
Brochure, # 33 Exhibit 33 - TA
Letter to Parents with
Application)(KELLER,
TIMOTHY) (Entered:
03/12/2019)
03/15/2019 25

JOINT STIPULATED FACTS
by AMY CARSON, DAVID
CARSON, ALAN GILLIS,
JUDITH GILLIS, ANGELA
NELSON, TROY NELSON.
(KELLER, TIMOTHY) Modified
on 3/15/2019 to clean up text
(mnw). (Entered: 03/15/2019)

04/05/2019 29

MOTION for Summary
Judgment by A PENDER
MAKIN Responses due by
4/26/2019. (FORSTER, SARAH)
(Entered: 04/05/2019)

04/05/2019 31

MOTION for Summary
Judgment and Memorandum in
Support Thereof by AMY
CARSON, DAVID CARSON,
ALAN GILLIS, JUDITH
GILLIS, ANGELA NELSON,
TROY NELSON Responses due
by 4/26/2019. (KELLER,
TIMOTHY) (Entered:
04/05/2019)

8
05/01/2019 45

RESPONSE in Opposition re 31
MOTION for Summary
Judgment filed by A PENDER
MAKIN. Reply due by 5/15/2019.
(TAUB, CHRISTOPHER)
(Entered: 05/01/2019)

05/01/2019 46

RESPONSE in Opposition re 29
MOTION for Summary
Judgment filed by AMY
CARSON, DAVID CARSON,
ALAN GILLIS, JUDITH
GILLIS, ANGELA NELSON,
TROY NELSON. Reply due by
5/15/2019. (KELLER,
TIMOTHY) (Entered:
05/01/2019)

05/10/2019 48

REPLY to Response to Motion
re 31 MOTION for Summary
Judgment filed by AMY
CARSON, DAVID CARSON,
ALAN GILLIS, JUDITH
GILLIS, ANGELA NELSON,
TROY NELSON. (KELLER,
TIMOTHY) (Entered:
05/10/2019)

05/10/2019 49

REPLY to Response to Motion
re 29 MOTION for Summary
Judgment filed by A PENDER
MAKIN. (FORSTER, SARAH)
(Entered: 05/10/2019)

06/24/2019 57

Minute Entry for proceedings
held before JUDGE D. BROCK
HORNBY: Oral Argument held

9
re 29 MOTION for Summary
Judgment filed by A PENDER
MAKIN, 31 MOTION for
Summary Judgment filed by
JUDITH GILLIS, DAVID
CARSON, TROY NELSON,
ALAN GILLIS, AMY CARSON,
ANGELA NELSON. (Court
Reporter: Lori Dunbar) (clp)
(Entered: 06/24/2019)
06/26/2019 58

DECISION AND ORDER ON
CROSS-MOTIONS FOR
JUDGMENT ON A
STIPULATED RECORD re: 29
Motion for Summary Judgment;
31 Motion for Summary
Judgment By JUDGE D.
BROCK HORNBY. (mjlt)
(Entered: 06/26/2019)

06/26/2019 59

JUDGMENT
It is hereby ORDERED that
any motion for attorney’s
fees shall be filed within the
time specified in Local Rule
54.2 of this Court.
By DEPUTY CLERK:Michelle
Thibodeau. (mjlt) (Entered:
06/26/2019)

07/23/2019 61

NOTICE OF APPEAL as to 59
Judgment, 58 Order on Motion
for Summary Judgment, by
AMY CARSON, DAVID
CARSON, ALAN GILLIS,

10
JUDITH GILLIS, ANGELA
NELSON, TROY NELSON .
(Filing fee $ 505 receipt number
0100-2052838.)
NOTICE TO COUNSEL: A
Transcript Report/Order
Form, which can be
downloaded from our web
site at http://www.med.
uscourts.gov/forms/ MUST
be completed and submitted
to the Court of Appeals.
Counsel should also register
for a First Circuit CM/ECF
Appellate Filer Account at
https://pacer.psc.uscourts.
gov/pscof/regWizard.jsf and
review the First Circuit
requirements for electronic
filing by visiting the CM/ECF
Information section at
http://www.ca1.uscourts.gov/
cmecf (KELLER, TIMOTHY)
(Entered: 07/23/2019)

11
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MAINE
DAVID and AMY CARSON, on
their own behalf and as next
friends of their child, O.C.;
ALAN and JUDITH GILLIS, on
their own behalf and as next
friends of their child, I.G.; and
TROY and ANGELA NELSON,
on their own behalf and as next
friends of their children, A.N.
Civil Action No.
and R.N.,
Plaintiffs,
v.
ROBERT G. HASSON, JR., in
his official capacity as
Commissioner of the Maine
Department of Education,
Defendant.
PLAINTIFFS’ COMPLAINT
(Filed Aug. 21, 2018)
INTRODUCTION
1. This is a federal civil rights action to vindicate
the rights guaranteed to three Maine families by the
First Amendment’s Free Exercise, Establishment, and
Free Speech Clauses, and the Fourteenth Amendment’s Equal Protection and Due Process Clauses.

12
2. In Maine, local “school administrative units”
(SAUs) that do not operate their own secondary schools
may pay tuition for resident students to attend either
a private secondary school or another SAU’s secondary
school. However, by statute, SAUs may not pay tuition
to otherwise qualified private schools if those schools
are sectarian. Me. Stat. tit. 20-A, § 2951(2).
3. Defendant Robert G. Hasson, Jr. is responsible
for enforcing—and does enforce—Maine’s statute
prohibiting SAUs from making tuition payments on
behalf of children whose parents choose to enroll them
in otherwise qualified sectarian schools.
4. Plaintiffs reside within the boundaries of
three different SAUs that pay tuition for students to
attend secular private schools. Plaintiffs, however,
send their children to otherwise qualified sectarian
schools and thus do not receive tuition payments from
those SAUs.
5. Defendant Hasson’s enforcement of Maine’s
denial of a generally available public benefit—tuition
payments for secondary education—to Plaintiffs
because their children attend a sectarian school
violates the principle that the government must not
discriminate against, or impose legal difficulties on,
religious individuals or institutions simply because
they are religious.
6. Defendant Hasson’s enforcement of the
statutory prohibition against making tuition payments on behalf of families choosing an otherwise
qualified sectarian school violates the Free Exercise,

13
Establishment, and Free Speech Clauses of the First
Amendment to the U.S. Constitution as well as the
Fourteenth Amendment’s Equal Protection and Due
Process Clauses.
PARTIES, JURISDICTION, AND VENUE
7. Plaintiffs David and Amy Carson are a
married couple who have resided in Glenburn, Maine
for 22 years. Their daughter O.C.1 will be a sophomore
at Bangor Christian Schools, a private, nonprofit
sectarian school, in the 2018-19 school year. Bangor
Christian Schools is the only school O.C. has ever
attended and is the same school from which both David
and Amy graduated high school. David and Amy send
O.C. to Bangor Christian Schools because the school’s
worldview aligns with their sincerely held religious
beliefs and because of the school’s high academic
standards.
8. Plaintiffs Alan and Judith Gillis are a married
couple who have resided in Orrington, Maine for 25
years. Their youngest daughter I.G. will be a junior at
Bangor Christian Schools, a private, nonprofit
sectarian school, in the 2018-19 school year. Alan and
Judith send I.G. to Bangor Christian Schools because
the school’s worldview aligns with their sincerely held
religious beliefs and because of the school’s high
academic standards.

1

Pursuant to Local Rule 5.2(a)(3), Plaintiffs’ minor children
are identified only by their initials.

14
9. Plaintiffs Troy and Angela Nelson are a
married couple who have resided in or near Palermo,
Maine for their entire lives. Their daughter, A.N., will
be a sophomore at Erskine Academy, a secular private
academy in the 2018-19 school year. Their son, R.N.,
will be in seventh grade at Temple Academy, a private,
nonprofit sectarian school in the 2018-19 school year.
Troy and Angela send R.N., and would prefer to send
A.N., to Temple Academy because the school offers a
high-quality educational program that aligns with
their sincerely held religious beliefs, but they cannot
afford to send more than one child to private school at
their own expense.
10. Defendant Robert G. Hasson, Jr., is the
Commissioner of the Maine Department of Education
(hereinafter “Department”), an agency of the State of
Maine, created and empowered under Me. Stat. tit. 20A, § 201(1) to “[s]upervise, guide and plan for a
coordinated system of public education for all citizens
of the State,” that is headquartered in Augusta, Maine.
11. Defendant Hasson has the primary responsibility and practical ability to enforce the legal and
regulatory requirements for SAUs, as well as the
primary responsibility and practical ability to ensure
that the Department’s regulations, policies, and
powers are implemented in accordance with the U.S.
Constitution.
12. Defendant Hasson is sued only in his official
capacity as Commissioner of the Maine Department of
Education.

15
13. Plaintiffs’ action, filed pursuant to 42 U.S.C.
§ 1983 and 28 U.S.C. §§ 2201(a) and 2202, seeks a
declaration that Me. Stat. tit. 20-A, § 2951(2) is
unconstitutional on its face and as applied to Plaintiffs,
as well as an injunction enjoining Defendant Hasson
from enforcing Me. Stat. tit. 20-A, § 2951(2) and
enjoining Defendant from otherwise denying tuition
payments to tuition-eligible students and their
parents on the sole basis that an otherwise eligible
private school is sectarian.
14. This Court possesses jurisdiction over this
action under 28 U.S.C. §§ 1331 and 1343(a)(3).
15. Pursuant to 28 U.S.C. § 1391(b)(1) and (2),
venue is proper in this judicial district because
Defendant resides within it and the events giving rise
to Plaintiffs’ claims occurred within it.
STATEMENT OF FACTS
16. The Maine State Legislature (hereinafter
“Legislature”) guarantees every school-aged child
residing within the State “an opportunity to receive
the benefits of a free public education.” Me. Stat. tit.
20-A, § 2(1).
17. The Legislature has vested “in the legislative
and governing bodies of local school administrative
units” the authority to fulfill the guarantee described
in paragraph 16. Me. Stat. tit. 20-A, § 2(2).
18. Accordingly, the SAUs with jurisdiction in
the towns in which Plaintiffs reside—the Glenburn

16
and Orrington School Departments and Regional
School Unit (“RSU”) #12, of which Palermo is a
member—are required to provide for the education of
children residing within the towns of Glenburn,
Orrington and Palermo through twelfth grade. See Me.
Stat. tit. 20-A, § 1001(8).
19. Neither the Glenburn School Department,
the Orrington School Department, nor RSU #12
maintains a secondary school.
20. If a SAU does not maintain a secondary
school, then, pursuant to Me. Stat. tit. 20-A, § 5204(4),
it must either: (a) contract with a public or private
school for the education of its resident secondary
students; or, (b) pay tuition for each resident secondary
student at the public secondary school or private
secondary school of his or her parents’ choice that is
“approved for the receipt of public funds for tuition
purposes,” Me. Stat. tit. 20-A, § 2951, and at which the
student is accepted.
21. To be “approved” pursuant to Me. Stat. tit. 20A, § 2951, a private school must:
a.

meet the requirements for “basic school
approval” under Me. Stat. tit. 20-A, § 2901,
Me. Stat. tit. 20-A, § 2951(1);

b.

be nonsectarian, Me. Stat. tit. 20-A, § 2951(2);

c.

be incorporated under the laws of the State of
Maine or of the United States, Me. Stat. tit.
20-A, § 3951(3);

17
d.

comply with the state’s reporting, auditing,
and student assessment requirements, Me.
Stat. tit. 20-A, § 2951(4)-(6); and

e.

release student records to the SAU, if a
student transfers from the private school, Me.
Stat. tit. 20-A, § 2951(7).

22. A private school meets the requirements for
basic school approval under Me. tit. 20-A, § 2901 if it
meets the State’s hygiene and health and safety laws,
Me. tit. 20-A, § 2901(1), and is either:
a.

accredited by the New England Association of
Schools and Colleges, Me. tit. 20-A,
§ 2901(2)(A); or

b.

approved “for attendance purposes,” Me. Stat.
tit. 20-A, § 2901(2)(B). To be approved “for
attendance purposes” a private school must
meet a list of requirements, such as hiring
only certified teachers, providing instruction
in English, and satisfying certain course and
curriculum requirements. Me. tit. 20-A,
§ 2902.

23. A SAU that chooses to pay tuition on behalf
of students, instead of contracting with a single public
or private school to educate its resident secondary
students, does not determine which schools receive the
tuition payments. Rather, each resident secondary
student’s parents are solely responsible for selecting
the school their child will attend.
24. Under Me. Stat. tit. 20-A, § 2951(2), a private
school may not be approved for tuition purposes unless

18
it is “a nonsectarian school in accordance with the First
Amendment of the United States Constitution.”
Accordingly, the Department does not permit SAUs to
pay tuition on behalf of parents of otherwise tuitioneligible students if those parents choose sectarian
schools for their children.
25. Neither the Glenburn School Department,
the Orrington School Department, nor RSU #12 has
contracted with a single public or private school for the
education of their resident secondary students.
26. Because the SAUs in which Plaintiffs reside
maintain neither their own secondary school nor
contract with a public or private school for the
education of their resident secondary students, the
Glenburn School Department, the Orrington School
Department, and RSU #12 must, for each of their
resident secondary students, pay the tuition at the
public school or private school that is approved for
tuition purposes and that is selected by the resident
secondary student’s parents. See Me. Stat. tit. 20-A,
§ 5204(4).
27. The Glenburn School Department, the
Orrington School Department, and RSU #12 are
obligated to pay up to the legal tuition rate, established
pursuant to Me. Stat. tit. 20-A, §§ 5805-06, to the
public or private school approved for tuition purposes
selected by the resident secondary student’s parents.
28. As residents of the Town of Glenburn,
Plaintiffs David and Amy Carson are entitled to have
the Glenburn School Department pay up to the legal

19
tuition rate to the public or approved private
secondary school that they select for their daughter
O.C. to attend.
29. As residents of the Town of Orrington,
Plaintiffs Alan and Judith Gillis are entitled to have
the Orrington School Department pay up to the legal
tuition rate to the public or approved private
secondary school that they select for their daughter
I.G. to attend.
30. David and Amy Carson, as well as Alan and
Judith Gillis, have chosen to send their respective
daughters, I.G. and O.C., to Bangor Christian Schools.
31. Bangor Christian Schools is a private, nonprofit, sectarian school located in Bangor, Maine and is
incorporated under the laws of Maine that educates
children at the prekindergarten through 12th-grade
levels.
32. Bangor Christian Schools is fully accredited
by the New England Association of Schools and
Colleges and thus operates as and is classified by the
Maine Department of Education as meeting the
requirements for “basic school approval” pursuant to
Me. Stat. tit. 20-A, § 2901(1), (2)(A).
33. However, even though Bangor Christian
Schools meets the basic school approval requirements
for a private school under Me. Stat. tit. 20-A, § 2901(1),
(2)(A) and, upon information and belief, is willing to
comply with the requirements to be approved for
tuition purposes under Me. Stat. tit. 20-A, § 2951, it is

20
ineligible to be approved for tuitioning purposes for the
sole reason that the school is sectarian. See Me. Stat.
tit. 20-A, § 2951(2).
34. Upon information and belief, but for the
sectarian exclusion, Bangor Christian Schools would
apply for status as a school approved for tuition and
accept tuition payments from the Glenburn and
Orrington School Departments.
35. As residents of the Town of Palermo, which is
a member of RSU #12, Plaintiffs Troy and Angela
Nelson are entitled to have RSU #12 pay up to the legal
tuition rate to the public or approved private
secondary school that they select for their children,
A.N. and R.N., to attend.
36. Troy and Angela Nelson send their daughter
A.N. to the Erskine Academy, a secular private
academy in South China, Maine. RSU #12 does pay
tuition for A.N. to attend Erskine Academy, a secular
private academy, but Troy and Angela would prefer to
send A.N. to Temple Academy, a private, nonprofit
sectarian school located in Waterville, Maine that
educates children at the pre-kindergarten through
12th-grade levels. However, RSU #12 would not pay
tuition for A.N. to attend Temple Academy because it
is a sectarian school.
37. Troy and Angela Nelson send their son, R.N.,
to Temple Academy and they want R.N. to continue
attending Temple Academy once he matriculates to
secondary school. However, RSU #12 will not pay
tuition for R.N. to attend Temple Academy when he

21
matriculates to secondary school because Temple
Academy is a sectarian school.
38. Troy and Angela cannot afford to send both
of their children to Temple Academy at their own
expense.
39. Temple Academy, like most sectarian schools
in Maine, currently operates as an unapproved private
school that annually affirms to the Maine Department
of Education its intent to comply with the state’s
guidelines for equivalent instruction pursuant to Me.
Stat. tit. 20-A, § 5001(3)(A)(1)(b).
40. Temple Academy, however, as a school that is
fully accredited by the New England Association of
Schools and Colleges, could satisfy the requirements
for “basic school approval” pursuant to Me. Stat. tit. 20A, § 2901(1), (2)(A) if it sought such approval. Upon
information and belief, the only reason Temple
Academy would consider seeking basic approval would
be to become approved for tuition purposes under Me.
Stat. tit. 20-A, § 2951, which is currently futile because
it is not eligible to be approved for tuition purposes for
the sole reason that it is a sectarian school. See Me.
Stat. tit. 20-A, § 2951(2).
41. Upon information and belief, but for the
sectarian exclusion, and upon approval of its School
Board, Temple Academy would seek recognition as a
basic approved school and apply for status as a school
approved for tuition and accept tuition payments from
the RSU #12.

22
42. Prior to 1980, sectarian schools could be
approved for tuition purposes. However, in 1982, in
response to a 1980 opinion of the Maine Attorney
General concluding that paying tuition for students
who attend sectarian schools violated the Establishment Clause of the U.S. Constitution, see Op. Me. Att’y
Gen. 80-2, the Maine Legislature enacted the sectarian
exclusion currently codified at Me. Stat. tit. 20-A,
§ 2951(2).
43. The Establishment Clause of the U.S.
Constitution does not prohibit the inclusion of
sectarian schools for tuitioning purposes. Zelman v.
Simmons-Harris, 536 U.S. 639 (2002).
44. Because of the sectarian exclusion codified at
Me. Stat. tit. 20-A, § 2951(2), neither David and Amy
Carson nor Alan and Judith Gillis can have tuition
paid to Bangor Christian Schools by their respective
SAUs, the Glenburn and Orrington School Departments, on behalf of their respective daughters, I.G. and
O.C.
45. Because of the sectarian exclusion codified at
Me. Stat. tit. 20-A, § 2951(2), Troy and Angela Nelson
cannot have tuition paid to Temple Academy by RSU
#12, on behalf of their children A.N. and R.N.
46. But for the sectarian exclusion codified at
Me. Stat. tit. 20-A, § 2951(2), Plaintiffs would have
asked their respective SAUs to pay the tuition at their
respective sectarian schools.

23
47. But for the sectarian exclusion codified at
Me. Stat. tit. 20-A, § 2951(2), Plaintiffs’ respective
SAUs would have been required to pay tuition at their
respective sectarian schools.
48. None of the Plaintiffs have requested that
their respective SAUs pay tuition to their respective
sectarian schools because such a request would be
futile.
49. Consequently, David and Amy Carson and
Alan and Judith Gillis have paid, and must continue to
pay, tuition for their respective children, I.G. and O.C.,
to attend Bangor Christian Schools.
50. Consequently, Troy and Angela Nelson
cannot enroll A.N. at Temple Academy because they
cannot afford tuition payments for both of their
children. Moreover, they have paid, and will be
required to continue to pay, tuition for R.N. to attend
Temple Academy upon his matriculation to high
school.
51. If Plaintiffs prevail in this case, they will
request tuition to attend their respective sectarian
schools from their respective SAUs, and their
respective SAUs will be required to pay such tuition to
otherwise qualified sectarian schools.
COUNT I: FREE EXERCISE OF RELIGION
52. By this reference, Plaintiffs incorporate each
and every allegation set forth in paragraphs 1 through
51 of this Complaint as though fully set forth herein.

24
53. The Free Exercise Clause of the First
Amendment to the U.S. Constitution provides, in relevant part, that “Congress shall make no law . . .
prohibiting the free exercise” of religion.
54. The Free Exercise Clause applies to states
and their subdivisions and municipalities through the
Fourteenth Amendment to the U.S. Constitution.
55. The Free Exercise Clause protects against
governmental hostility toward religion and requires
neutrality toward religion.
56. Me. Stat. tit. 20-A, § 2951(2) is not neutral
with respect to religion and is not a law of general
applicability. Rather, it discriminates against religion
on its face, in that it allows parents whose SAU does
not operate its own secondary school, and instead pays
tuition for students residing in the SAU to attend the
public or private secondary school of the parents’
choice, to direct their children’s tuitioning payments to
private secular schools, but not to private sectarian
schools.
57. On its face and as applied to Plaintiffs, Me.
Stat. tit. 20-A, § 2951(2) conditions the receipt of a
public benefit on the forgoing of religious convictions
and free exercise rights.
58. By denying tuition payments for children
whose parents choose to send them to sectarian
schools, Me. Stat. tit. 20-A, § 2951(2) forces parents
either to forgo the receipt of an otherwise generally

25
available benefit or to forgo their right and conviction
to educate their children in a sectarian school.
59. On its face and as applied to Plaintiffs, Me.
Stat. tit. 20-A, § 2951(2) discriminates and imposes
special disabilities based on the religious status of: (a)
the schools it bars from receiving tuitioning payments;
and (b) the parents whose sincerely held religious
beliefs motivate them to choose sectarian schools for
their otherwise tuition-eligible children.
60. On its face and as applied to Plaintiffs, Me.
Stat. tit. 20-A, § 2951(2) substantially burdens the free
exercise rights of parents whose conviction is to
educate their child in a sectarian school.
61. Defendant has no compelling, substantial, or
even legitimate interest in denying tuition-eligible
families private sectarian options while allowing them
private secular options.
62. Me. Stat. tit. 20-A, § 2951(2) is not narrowly
tailored to achieve, nor is it rationally related to, any
governmental interest Defendant purports to have.
63. The Establishment Clause of the U.S.
Constitution does not prohibit SAUs from making
tuition payments to private sectarian schools chosen
by Plaintiffs for their children or by the parents of
other tuition-eligible students for their own children.
64. A desire to achieve greater separation of
church and state than is already ensured under the
Establishment Clause of the U.S. Constitution cannot
justify the exclusion of sectarian options in SAUs that

26
pay tuition for students who attend secular private
schools.
65. On its face and as applied to Plaintiffs, Me.
Stat. tit. 20-A, § 2951(2) violates the Free Exercise
Clause of the First Amendment to the U.S.
Constitution insofar as it denies sectarian options to
tuition-eligible students and their parents.
COUNT II: ESTABLISHMENT OF RELIGION
66. By this reference, Plaintiffs incorporate each
and every allegation set forth in paragraphs 1 through
65 of this Complaint as though fully set forth herein.
67. The Establishment Clause of the First Amendment to the U.S. Constitution provides, “Congress shall
make no law respecting an establishment of religion.”
68. The Establishment Clause applies to states
and their subdivisions and municipalities through the
Fourteenth Amendment to the U.S. Constitution.
69. The Establishment Clause requires neutrality toward religion.
70. Accordingly, government may neither favor,
nor disfavor, religion over non-religion or one religion
over another.
71. By denying tuition-eligible students and
their parents sectarian options while allowing private
secular options, Me. Stat. tit. 20-A, § 2951(2) is, on its
face and as applied to Plaintiffs, hostile toward and
disapproving of religion.

27
72. Defendant does not have a valid secular
governmental purpose for denying tuition-eligible
families sectarian options.
73. On its face and as applied to Plaintiffs, Me.
Stat. tit. 20-A, § 2951(2) has the principal and primary
effect of inhibiting religion, in that it denies tuition
to children whose parents wish to send them to a
sectarian school. In this regard, it conditions receipt of
an otherwise available public benefit on their
willingness to forgo their religious convictions and
their right to educate their children in a sectarian
school. It thereby creates a substantial disincentive for
parents to enroll their children in sectarian schools.
74. On its face and as applied to Plaintiffs, Me.
Stat. tit. 20-A, § 2951(2) violates the Establishment
Clause of the First Amendment to the U.S. Constitution insofar as it denies sectarian options to tuitioneligible students and their parents.
COUNT III: FREEDOM OF SPEECH
75. By this reference, Plaintiffs incorporate each
and every allegation set forth in paragraphs 1 through
74 of this Complaint as though fully set forth herein.
76. The Free Speech Clause of the First Amendment to the U.S. Constitution provides, in relevant
part, that “Congress shall make no law . . . abridging
the freedom of speech.”

28
77. The Free Speech Clause applies to states and
their subdivisions and municipalities through the
Fourteenth Amendment to the U.S. Constitution.
78. The Free Speech Clause prohibits restrictions of speech that are based on content or viewpoint.
79. Plaintiffs’ decisions concerning, and making
provision for, the education of their children are a form
of expression and speech protected by the Free Speech
Clause.
80. On its face and as applied to Plaintiffs, Me.
Stat. tit. 20-A, § 2951(2) restricts expression and
speech based on content and viewpoint because it
denies tuition payments only for those children whose
parents wish to send them to a sectarian school.
81. Defendant has no compelling, substantial, or
even legitimate interest in denying tuition-eligible
families sectarian options while allowing private
secular options.
82. Me. Stat. tit. 20-A, § 2951(2) is not narrowly
tailored to achieve, nor is it rationally related to, any
governmental interest Defendant purports to have.
83. On its face and as applied to Plaintiffs, Me.
Stat. tit. 20-A, § 2951(2) violates the Free Speech
Clause of the First Amendment to the U.S.
Constitution insofar as it denies sectarian options to
tuition-eligible students and their parents.

29
COUNT IV: EQUAL PROTECTION OF THE LAWS
84. By this reference, Plaintiffs incorporate each
and every allegation set forth in paragraphs 1 through
83 of this Complaint as though fully set forth herein.
85. The Equal Protection Clause of the Fourteenth Amendment to the U.S. Constitution provides,
in relevant part, that “No State shall . . . deny to any
person within its jurisdiction the equal protection of
the laws.”
86. The Equal Protection Clause applies to
states and their subdivisions and municipalities.
87. The Equal Protection Clause prohibits the
government from discriminating on the basis of
religion, which is a suspect classification for equal
protection purposes.
88. By denying tuition-eligible students and
their parents sectarian options while allowing private
secular options, Me. Stat. tit. 20-A, § 2951(2) discriminates, facially and as applied to Plaintiffs, on the basis
of religion.
89. Defendant has no compelling, substantial, or
even legitimate interest in denying tuition-eligible
students and their parents sectarian options while
allowing private secular options.
90. Me. Stat. tit. 20-A, § 2951(2) is not narrowly
tailored to achieve, nor is it rationally related to, any
governmental interest Defendant purports to have.

30
91. By excluding sectarian options, Me. Stat. tit.
20-A, § 2951(2) makes it more difficult for one group of
citizens than for all others to seek aid from the
government.
92. On its face and as applied to Plaintiffs, Me.
Stat. tit. 20-A, § 2951(2) discriminates on the basis of
religion and therefore violates the Equal Protection
Clause of the Fourteenth Amendment to the U.S.
Constitution insofar as it denies sectarian options to
tuition-eligible students and their parents.
COUNT V: DUE PROCESS
93. By this reference, Plaintiffs incorporate each
and every allegation set forth in paragraphs 1 through
92 of this Complaint as though fully set forth herein.
94. The Due Process Clause of the Fourteenth
Amendment to the U.S. Constitution provides, in
relevant part, that “No State shall . . . deprive any
person of life, liberty, or property, without due process
of law.”
95. The Due Process Clause applies to states and
their subdivisions and municipalities.
96. Among the liberties protected by the Due
Process Clause is the liberty of parents to control and
direct the education and upbringing of the children
under their control. This liberty is fundamental.
97. On its face and as applied to Plaintiffs, Me.
Stat. tit. 20-A, § 2951(2) conditions receipt of a public

31
benefit on the forbearance of the Plaintiffs’ liberty to
control and direct the education and upbringing of
their children. By prohibiting tuition payments for
children whose parents choose to send them to
sectarian schools, it forces parents to either forgo the
benefit of tuition funds for their child or forgo their
right to send their child to the school of their choice.
98. Defendant has no compelling, substantial, or
even legitimate interest in denying tuition-eligible
students and their parents sectarian options while
allowing private secular options.
99. Me. Stat. tit. 20-A, § 2951(2) is not narrowly
tailored to achieve, nor is it rationally related to, any
governmental interest Defendant purports to have.
100. On its face and as applied to Plaintiffs, Me.
Stat. tit. 20-A, § 2951(2) violates the Due Process
Clause of the Fourteenth Amendment to the U.S.
Constitution insofar as it denies sectarian options to
tuition-eligible students and their parents.
PRAYER FOR RELIEF
Plaintiffs respectfully request the following relief:
A. A declaratory judgment by the Court that Me.
Stat. tit. 20-A, § 2951(2), on its face and as applied to
Plaintiffs, violates the Free Exercise, Establishment,
Free Speech, Equal Protection, and Due Process
Clauses of First and Fourteenth Amendments to the
U.S. Constitution insofar as its excludes sectarian
options from Maine’s system of paying tuition for

32
students to attend private and public schools in towns
whose SAUs do not operate a secondary school of their
own;
B. A preliminary and permanent injunction
prohibiting Defendant from enforcing Me. Stat. tit. 20A, § 2951(2) or otherwise denying sectarian options to
tuition-eligible students and their parents;
C. An award of attorneys’ fees, costs, and
expenses pursuant to 42 U.S.C. § 1988; and
D. Any other legal and equitable relief the Court
may deem appropriate and just.
DATED: August 21, 2018
Respectfully submitted,
s/ Jeffrey T. Edwards
Jeffrey T. Edwards
PRETIFLAHERTY
One City Center
P.O. Box 9546
Portland, ME 04112-9546
Telephone: (207) 791-3000
Fax: (207) 791-3111
Email: jedwards@preti.com
Timothy D. Keller*
INSTITUTE FOR JUSTICE
398 S. Mill Avenue, Suite 301
Tempe, AZ 85281
Telephone: (480) 557-8300
Fax: (480) 557-8315
Email: tkeller@ij.org

33
Arif Panju*
INSTITUTE FOR JUSTICE
816 Congress Ave, Suite 960
Austin, TX 78701
Telephone: (512) 480-5936
Fax: (512) 480-5937
E-mail: apanju@ij.org
Lea Patterson*
FIRST LIBERTY INSTITUTE
2001 W. Plano Parkway, Suite 1600
Plano, TX 75075
Telephone: (972) 941-4444
Fax: (972) 423-6162
E-mail: lepatterson@firstliberty.org
Benjamin W. Bull*
FIRST LIBERTY INSTITUTE
227 Pennsylvania Avenue SE
Washington, D.C. 20003
Telephone: (202) 506-4027
Fax: (202) 629-1658
E-mail: bbull@firstliberty.org
Michael K. Whitehead*
Jonathan R. Whitehead*
Whitehead Law Firm, LLC
229 SE Douglas St., Suite 210
Lee’s Summit, MO 64063
Telephone: (816) 398-8967
Fax: (816) 875-3291
E-mail: Mike@TheWhiteheadFirm.com
E-mail: Jon@WhiteheadLawLLC.com
*Certificates for admission pro hac vice
have been filed contemporaneously with
the filing of this complaint pursuant to

34
Local Rule 83.1(c). Upon his admission,
Mr. Keller will serve as counsel of record.
Attorneys for Plaintiffs David and Amy
Carson; Alan and Judith Gillis; and Troy
and Angela Nelson

35
[SEAL]
[LOGO] RICHARD S. COHEN
ATTORNEY GENERAL

STEPHEN L. DIAMOND
JOHN S. GLEASON
JOHN M. R. PATERSON
ROBERT J. STOLT
DEPUTY ATTORNEYS GENERAL

STATE
DEPARTMENT

OF

OF THE

MAINE

ATTORNEY GENERAL

AUGUSTA, MAINE 04333
January 7, 1980
Honorable Howard M. Trotzky
Maine State Senate
State House
Augusta, Maine 04333
Dear Senator Trotzky:
This will respond to your request for an opinion on
the following question:
“Does L.D. 691, Chapter 431, Public Law
1979, violate the First Amendment of the U.S.
Constitution inasmuch as it allows individuals in school administrative districts to attend
privately operated religious schools at public
expense?”
Your question raises a broader issue, namely, whether
public funds may be used to pay the tuition of children
attending religiously operated elementary and secondary schools. In order to properly respond to your

36
question, it is necessary to set out the pertinent statutory provisions in some detail.
The Statutory Framework
At the present time there are several statutes
which authorize school officials, in appropriate circumstances, to pay the tuition of students who attend privately operated elementary and secondary schools.
Section 1 of Chapter 431 of the Public Laws of 1979
enacted a new section 213-A to Title 20 of the Maine
Revised Statutes which mandates that each school administrative district maintain both an elementary and
a secondary school for its pupils. 20 M.R.S.A. §213-A
(2)(D) (1965-1979 Supp.) provides, however, that
“ . . . a district may meet the requirement of
providing a secondary school facility by contracting . . . with a private academy for all or
part of its pupils for a term of from 2 years to
10 years.”
20 M.R.S.A. §912 (1965-1979 Supp.) authorizes
each school administrative unit to contract with another administrative unit for elementary school privileges. In the event that an administrative unit does
not maintain an elementary school and does not contract for elementary school privileges, it “may pay tuition for any student who resides with a parent or
legal guardian in that administrative unit and who
attends an approved elementary school.” 20 M.R.S.A.
§912 (1965-1979 Supp.).

37
Section 1289 of Title 20, as amended by P.L. 1979,
c. 431, §4, permits any administrative unit which does
not maintain a secondary school to authorize its local
school committee to enter into contracts with the trustees of an approved private academy for secular educational services. Any contract entered into pursuant
to 20 M.R.S.A. §1289 may run from one to five years.
Section 1289 further provides that in those instances
where an administrative unit has entered into a contract with a private academy, a joint committee may be
established consisting of “a mutually agreed upon
number of members of the school committee or board
of directors of each contracting administrative unit
chosen from their own membership and an equal number of trustees of the academy.” The responsibilities
and powers of the joint committee are set out in 20
M.R.S.A. §1289 (1965-1979 Supp.) and include the authority to select and employ the teachers at the academy, to fix their salaries, to arrange the course of study
and “to supervise the instruction and to formulate and
enforce proper regulations pertaining to other educational activities of the school.” Finally; with respect to
the financial arrangements pertaining to a contract
made pursuant to 20 M.R.S.A. §1289, the tuition liability of the contracting administrative unit is the same
as if the unit maintained an approved secondary
school.
In the event that an administrative unit does not
maintain an approved secondary school and does not
contract for secondary school privileges, a student
who resides within the unit “may attend any approved

38
secondary school to which he may gain admission.” 20
M.R.S.A. §1291 (1965-1979 Supp.) as amended by
P.L. 1979, c.431, §5. Additionally, 20 M.R.S.A. §1291
permits a student to attend “some other approved
secondary school to which he may gain admission for
the purpose of studying an occupational course, a
mathematics or science course or a foreign language
course where the secondary school within his administrative unit does not offer a sufficient number of those
courses.1

1

20 M.R.S.A. §1291 (1965-1979 Supp). provides in pertinent

part:
“Any youth whose parent or legal guardian maintains a home for his family in an administrative unit
that maintains, or contracts for school privileges in, an
approved secondary school which offers less than 2 approved occupational courses of study, and who has met
the qualifications for admission to the high school in
his town, may elect to attend some other approved secondary school to which he may gain admission for the
purpose of studying an occupational course not offered
or contracted for by the administrative unit of his legal
residence. Any youth whose parent or legal guardian
maintains a home for his family in an adminstrative
unit that maintains, or contracts for school privileges
in, an approved secondary school, and who has met the
qualifications for admission to the high school in his
unit, may elect to attend some other approved secondary school in the State to which he may gain admission
for the purpose of studying or of completing at least a
2-year course in mathematics or science when such
courses are not offered or contracted for by the administrative unit of his legal residence or a foreign language when the unit where he resides offers less than
2 approved foreign language courses, . . . ”

39
Finally, 20 M.R.S.A. §1454 provides that “[a]ny
youth whose parent or legal guardian maintains a
home for his family in the unorganized territory of this
State and who may be judged by the commissioner
qualified to enter an approved secondary school may
attend any such school in the State to which he may
gain entrance . . . .”
To summarize the statutory provisions in question, 20 M.R.S.A. §213-A (1965-1979 Supp.) permits a
school administrative district, which does not maintain a secondary school facility, to contract with a private academy to provide secondary school privileges
for its pupils. 20 M.R.S.A. §912 (1965-1979 Supp.) authorizes a school administrative unit, which does not
maintain an approved elementary school and does not
contract with another unit for such services, to pay a
student’s tuition for attendance at “an approved elementary school.” 20 M.R.S.A. §1289 (1965-1979 Supp.)
authorizes a school administrative unit, which does
not maintain an approved secondary school, to contract
with a private academy to provide for the schooling of
all or some of its pupils. 20 M.R.S.A. §1291 (1965-1979
Supp.) permits a student to attend any approved secondary school to which he may gain admission in the
event that his school administrative unit does not support, maintain or contract for secondary schooling for
its pupils. Additionally, 20 M.R.S.A. §1291 permits a
student, in appropriate circumstances, to attend an
approved secondary school to which he may gain admission for the purpose of studying an occupational
course, a mathematics or science course or a foreign

40
language course. Finally, 20 M.R.S.A. §1454 (1965-1979
Supp.) permits, in certain circumstances, a student from
the unorganized territory to attend an approved secondary school, to which he may gain admission, at
State expense.
Before addressing your specific question regarding
the constitutional issue, it is necessary to determine
whether the statutory provisions referred to above apply to religiously operated elementary and secondary
schools or whether the statutory authority of school administrative districts and units to enter into contracts
with and pay the tuition of students at non-public
schools is limited to private non-religious elementary
and secondary schools.
It is a well-established principle that the courts
will avoid addressing questions raising constitutional
issues unless it is impossible to do so. See, e.g., Johnson
v. Maine Wetlands Control Board, Me., 250 A.2d 825,
827 (1969); State v. Good, Me., 308 A.2d 576, 579
(1973); Morris v. Goss, 147 Me. 87, 93, 83 A.2d 556
(1951). While the judiciary has both the duty and the
power to invalidate unconstitutional legislation, State
v. Butler, 105 Me. 91; 73 A. 560 (1909), it has an equally
important responsibility to exercise that power with
caution and “only when there are no rational doubts
which may be resolved in favor of the constitutionality
of the statute. . . .” Crommett v. City of Portland, 150
Me. 217, 231, 107 A.2d 841 (1954) quoting State v.
Vahlsing, 147 Me. 417, 430, 88 A.2d 144 (1952). As stated
by former Chief Justice Dufresne, “[t]he cardinal principle

41
of statutory construction is to save, not to destroy.”
State v. Davenport, Me., 326 A.2d 1, 6 (1974).
With respect to any legislative enactment, there is
a strong presumption of constitutionality. State v. S.S.
Kresge, Inc., Me., 364 A.2d 868, 872 (1976). In construing legislation, the duty of the court is to determine
whether the provisions of the statute “are susceptible
of a reasonable interpretation which would satisfy constitutional requirements.” Portland Pipe Line Corp. v.
Environmental Improvement Commission, Me., 307
A.2d 1, 15 (1973), app. dismissed, 414 U.S. 1035 (1973).
If at all possible, a statute should be construed, in a
reasonable manner, so as to avoid rendering it unconstitutional. State v. Fitanides, Me., 373 A.2d 915, 92021 (1977). Where a statute is reasonably susceptible of
two interpretations, the court is bound to adopt that
interpretation which sustains the statute’s constitutionality. See Portland Pipe Line Corp. v. Environment
Improvement Commission, supra; In re Stubbs, 141
Me. 143, 147, 39 A.2d 853 (1944).
With respect to sections 213-A, 912, 1289, 1291
and 1454 of Title 20, the statutes are all silent as to
whether school administrative units and districts are
authorized to pay the tuition of students attending religiously operated elementary and secondary schools.
Each statute in question authorizes, in appropriate
cases, either a school administrative unit or district to
enter into contracts with and pay the tuition for students at privately operated elementary and secondary
schools. One interpretation of these statutes is that administrative units and districts may contract with any

42
private elementary or secondary school, including religiously operated ones. On the other hand, an equally
reasonable interpretation of these statutory provisions
is that the authority of administrative units and districts to enter into such contracts is limited to private,
non-sectarian elementary and secondary schools.
In view of the doctrine that statutes should be construed, if reasonably possible, so as to avoid rendering
them unconstitutional, it is now necessary to consider
whether the practice of using public funds to pay tuition for students attending religiously operated elementary and secondary schools is constitutionally
permissible.2
The Establishment Clause
The First Amendment to the United States Constitution3 provides in relevant part:
“Congress shall make no law respecting
an establishment of religion, or prohibiting
the free exercise thereof. . . .”

2

It is our understanding that as of October 1, 1979, 46 pupils
were attending religiously operated elementary schools and 239
pupils were attending religiously operated secondary schools at
public expense pursuant to 20 M.R.S.A. §§213-A, 912, 1289, 1291
or 1454 (1965-1979 Supp.).
3
The provisions of the First Amendment have been made
binding on the states through the Fourteenth Amendment. See
Murdock v. Pennsylvania, 319 U.S. 106 (1943).

43
Article I, §3 of the Maine Constitution contains a similar prohibition.4
Any analysis of the First Amendment’s “Establishment Clause” and its interrelationship with state
attempts to provide public aid, either directly or indirectly, to religiously operated schools, must necessarily
begin with the United States Supreme Court decision
in Everson v. Board of Education, 330 U.S. 1 (1947). In
Everson, the Court upheld a New Jersey statute authorizing reimbursement to parents for the costs of
4

Article I, §3, Me. Const., provides:
“All men have a natural and unalienable right to
worship Almighty God according to the dictates of their
consciences, and no one shall be hurt, molested or restrained in his person, liberty or estate for worshipping
God in the manner and season most agreeable to the
dictates of his own conscience, nor for his religious professions or sentiments, provided he does not disturb the
public peace, nor obstruct others in their religious worship; --and all persons demeaning themselves peaceably, as good members of the State, shall be equally
under the protection of the laws, and no subordination
nor preference of any one sect or denomination to another shall ever be established by law, nor shall any
religious test be required as a qualification for any office or trust, under this State; and all religious societies
in this State, whether incorporate or unincorporate,
shall at all times have the exclusive right of electing
their public teachers, and contracting with them for
their support and maintenance.”
The Maine Law Court has held that the prohibitions in Article I, §3 are “no more stringent” than those embodied in the First.
and Fourteenth Amendments to the United States Constitution.
Squires v. City of Augusta, 155 Me. 141, 164, 153 A.2d 80, 88
(1959).

44
transporting their children to school. The statute also
permitted reimbursement for transportation expenses
to parents whose children attended parochial schools.
In arriving at its decision, the Court recognized the inherent tension between the “Establishment Clause”
and the “Free Exercise Clause” of the First Amendment. As stated by the Court:
“New Jersey cannot consistently with the ‘establishment of religion’ clause of the First
Amendment contribute tax-raised funds to
the support of an institution which teaches
the tenets and faith of any church. On the
other hand, other language of the amendment
commands that New Jersey cannot hamper
its citizens in the free exercise of their own religion.”
Id. at 16.
Acknowledging that the “establishment clause”
was intended to erect “ ‘a wall of separation between
church and State,’ ” the Court concluded that providing
bus transportation to all children, including those attending religious schools, did not offend any constitutional principle embodied in the First Amendment. Id.
at 16 quoting Reynolds v. United States, 98 U.S. 145,
164. In essence, the Court concluded that providing
transportation to all school children did not have either the purpose or effect of promoting or establishing
religion.5

5

The constitutionality of using public money to provide transportation to children attending religious schools was recently

45
In Abington School District v. Schempp, 374 U.S.
203, 222 (1963) the Supreme Court attempted to formulate a general rule regarding establishment clause
cases.6 The Court stated:
“The test may be stated as follows: what are
the purpose and primary effect of the enactment? If either is the advancement or inhibition of religion then the enactment exceeds
the scope of legislative power as circumscribed by the Constitution. That is to say that
to withstand the strictures of the Establishment Clause there must be a secular legislative purpose and a primary effect that neither
advances nor inhibits religion.”
Applying the test announced in Schempp, the Court in
Board of Education v. Allen, 392 U.S. 238 (1967) upheld
a New York statute authorizing the loan of approved
secular textbooks to all school children, including those
attending parochial schools. While the Court recognized that textbooks are significantly different from
school buses, the Court also noted that “each book
loaned must be approved by the public school authorities; only secular books may receive approval.” 392 U.S.
at 244-45.
In its landmark decision in Lemon v. Kurtzman,
403 U.S. 602 (1971) (hereinafter referred to as Lemon
reaffirmed in Cromwell Property Owners Association v. Toffolon,
___ F.Supp. ___ (D.Conn., Docket No. Civil H-78-475, Filed August 31, 1979).
6
Abington School District v. Schempp, supra involved Bible
reading in public schools. See also Engel v. Vitale, 370 U.S.

46
I), the United States Supreme Court added a third and
possibly a fourth criterion to the “purpose and effect”
test it had adopted and followed in Schempp and Allen.
In Lemon I, the Court held that in order for a statute
to survive a challenge that it is unconstitutional because it authorizes state aid to religiously affiliated
schools, not only must it have a secular legislative purpose and a primary or principal effect which neither
advances nor inhibits religion, it must also not foster
an excessive governmental entanglement with religion. Additionally, the Court suggested that issues involving the use of public money to aid religious schools
carry the potential for political divisiveness in local
communities. This danger of political divisiveness, the
Court added, is at odds with the fundamental principle
that church and State remain separate.
The analysis formulated in Lemon I has been
utilized by the Court in all of the subsequent cases
raising establishment clause challenges. In evaluating a challenged statute, it should be emphasized
that the First and Fourteenth Amendments prohibit
laws “ ‘respecting an establishment of religion’ even
though its consequence is not to promote a ‘state religion.’ ” Committee For Public Education. v. Nyquist,
413 U.S. 756, 771 (1972). On the other hand, “not every
law that confers an ‘indirect,’ ‘remote,’ or ‘incidental’
benefit upon religious institutions is, for that reason
alone constitutionally invalid.” Id.
An examination of each of the tests articulated in
Lemon I follows.

47
The “Purpose” Test
The “purpose” test enunciated by the United
States Supreme, Court is perhaps the easiest to apply.
Pursuant to this standard, the Court attempts to ascertain the purpose which the legislative enactment
was designed to achieve. In most cases involving state
aid to religious schools, it is clear one way or the other,
what purpose the statute was intended to serve. In the
most recent cases, the Court has had no need to use the
“purpose” test since it has been clear that a particular
statute had a secular purpose, i.e., providing for the education of all school children. However, in some relatively early decisions the Court did strike down state
statutes because their purposes were to promote religious activity. See, e.g., Epperson v. Arkansas, 393 U.S.
97 (1969) (statute prohibiting the teaching in public
schools of the theory of evolution); Engle v. Vitale, 370
U.S. 421 (1962) (statute requiring prayer reading in
public schools); Abington School District v. Schempp,
374 U.S. 203 (1963) (statute requiring Bible reading in
public schools); McCollum v. Board of Education, 333
U.S. 203 (1948) (statute authorizing “release time”
from public education for religious instruction in public school buildings). Compare Zorach v. Clauson, 343
U.S. 305 (1952) in which the Court upheld the constitutionality of a statute authorizing “release time” from
public education for religious instruction off public
school premises.
It is fair to say that with respect to cases involving
public aid, in varying forms, to religious educational

48
institutions, the Court has rarely used the “purpose”
test to invalidate a state statute.
The “Primary or Principal Effect” Test
The “primary effect” test formulated by the United
States Supreme Court to evaluate statutes claimed to
be violative or the Establishment Clause is, perhaps,
the most difficult test to understand and apply. In
many cases, its contours overlap with those of the “entanglement” test. Nevertheless, it is fair to say that
those cases which have discussed and applied the “primary effect” test have emphasized a common element.
That element is that the educational institutions receiving public aid were pervasively religious, such that
it would be impossible to identify public aid as being
used for purely secular purposes. The pervasively religious atmosphere at such institutions has led the
Court to conclude that public aid for purely secular
functions cannot be distinguished from the sectarian
function performed by the religious institution and
therefore has a primary effect of aiding and/or promoting that religious atmosphere. A few examples may
clarify the “primary effect” rationale.
In Hunt v. McNair, 413 U.S. 734 (1973) the Court
considered a South Carolina statute which was designed to assist higher education institutions in constructing, financing and re-financing building projects
through revenue bonds. The law was designed to benefit all institutions of higher education, including those
operated by religious groups. The advantage of the

49
statute was that the college or university would borrow
money at low interest and would not have to pay income tax on that interest. The law was challenged on
First Amendment’ grounds when a Baptist College attempted to apply for benefits under it. In speaking of
the “primary effect” test, the Court observed:
“Aid normally may be thought to have a
primary effect of advancing religion when it
flows to an institution in which religion is so
pervasive that a substantial portion of its
functions are subsumed in the religious mission or when it funds a specifically religious
activity in an otherwise substantially secular
setting.”
Id. at 743.
In Hunt, the Court found no evidence that the college
was pervasively religious and therefore held that the
law, as applied in this case, did not have a primary effect of advancing religion.
Similar results were reached in Roemer v. Maryland Public Works Board, 426 U.S. 736 (1976) and
Tilton v. Richardson, 403 U.S. 672 (1970). In Roemer, a
state statute authorized the payment of public funds
to “any private institution of higher learning within
the State of Maryland.” The act specifically provided
that the funds could not be used for sectarian purposes
and an auditing procedure was established to ensure
that this provision of the act was not violated. Moreover, funds were not available to institutions which
awarded only “seminarian or theological” degrees. In

50
rejecting a claim that the primary effect of the law advanced religion, the Court noted that while the religiously operated colleges had some aspects of sectarian
influence, they were not pervasively sectarian. The
Court was not persuaded that the institutions in question were so permeated with religion that their sectarian aspects could not be separated from their
secular functions.
Similarly, in Tilton the Court upheld the constitutionality of Title I of the Higher Education Facilities
Act of 1963 (20 U.S.C. §§711-721). This Act provided
federal grants for the construction of buildings and facilities used exclusively for secular educational purposes. The Act was challenged when several catholic
colleges applied for construction grants. The Court rejected the “primary effect” argument “that religion so
permeates the secular education Provided by churchrelated colleges and universities that their religious
and secular educational functions are in fact inseparable.” 403 U.S. at 680.
On the other hand, there are several cases in
which the Supreme Court has employed the “primary
effect” rationale to strike down statutes providing aid
to sectarian educational institutions. For example, in
Meek v. Pittenger, 421 U.S. 349 (1975) the Court struck
down a portion of a Pennsylvania statute which authorized private elementary and secondary schools, including religious ones, to receive instructional material
and equipment. Although the instructional material
and equipment was secular in nature, the Court invalidated the statute because its primary effect

51
advanced religion in view of “the predominantly religious character of the schools benefitting from the Act.”
Id. at 364. The Court stated:
“ . . . faced with the substantial amounts of direct support authorized by [the] Act . . . , it
would simply ignore reality to separate secular educational functions from the predominantly religious role performed by many of
Pennsylvania’s church-related elementary
and secondary schools and then characterize
[the] Act . . . as channelling aid to the secular
without providing direct aid to the sectarian.
Even though earmarked for secular purposes,
‘when it flows to an institution in which religion is so pervasive that a substantial portion
of its functions are subsumed in the religious
mission,’ state aid has the impermissible primary effect of advancing religion.” Id. at 36566 quoting Hunt v. McNair, 413 U.S. at 743.
Once again, a similar result was reached in Wolman v.
Walter, 433 U.S. 229 (1977) in which the Court struck
down a portion of a state statute which authorized Payment to private religious elementary and secondary
schools for field trip supervision. Using the “primary
effect” rationale as well as the “entanglement” test, the
Court concluded that it was simply impossible to separate the secular functions performed by the schools
from their sectarian ones.7
7

It should also be noted that the Wolman Court invalidated
a portion of the statute which authorized pupils, or their parents,
in religious schools to receive secular instructional material and
equipment. In Meek, the material and equipment was given

52
In Committee For Public Education v. Nyquist,
413 U.S. 756 (1972) and Levitt v. Committee For Public
Education, 413 U.S. 472 (1972) the Court invalidated
two New York statutes on the ground that their primary effect advanced religion. In Nyquist, the statute
authorized direct payments to private elementary
and secondary schools, including religious ones, for
“maintenance and repair” of school buildings. The statute also authorized tuition reimbursements and a tax
break directly to parents who sent their children to
non-public schools.8 The Court concluded that the secular and sectarian purposes of the religious schools
were so intertwined that there was no practical way to
keep them separate. With respect to the “maintenance
and repair” provisions of the statute, the Court stated:
“No attempt is made to restrict payments to
those expenditures related to the upkeep of
facilities used exclusively for secular purposes, nor do we think it possible within the
context of these religion-oriented institutions
to impose such restrictions . . . Absent appropriate restrictions on expenditures . . . , it
simply cannot be denied that this section has
a primary effect that advances religion in that
it subsidizes directly the religious activities of
directly to the schools. The Court did not consider this distinction
to be relevant for First Amendment purposes.
8
In striking down the “tax benefits” portion of the New York
statute, the Court distinguished its ruling in Walz v. Tax Commission, 397 U.S. 664 (1969) which upheld the constitutionality
of property tax exemption to religious organizations for properties
used solely for religious worship.

53
sectarian elementary and secondary schools.”
413 U.S. at 774.
With respect to the tuition reimbursement section of
the act, the Court concluded that it, too, had a primary
effect that advanced religion. The Court first observed
that a direct payment of money to the school would be
invalid under the establishment clause. The Court was
unimpressed with the argument that the statute was
saved because the reimbursements were made to the
parents not to the schools. “By reimbursing parents for
a portion of their tuition bill, the State seeks to relieve
their financial burdens sufficiently to assure that they
continue to have the option to send their children to
religion-oriented schools . . . [T]he effect of the aid is
unmistakably to provide desired financial support for
non-public, sectarian institutions.”9 Id. at 783. The decision in Nyquist was followed in Sloan v Lemon, 413
U.S. 825 (1973) in which the Court struck down a Pennsylvania statute authorizing tuition reimbursements
to parents who sent their children to non-public sectarian schools.
Finally, in Levitt v. Committee For Public Education, supra, the Court struck down a New York statute
which authorized direct money grants to non-public
elementary and secondary schools to perform “testing
and recordkeeping” which was required by state
law. Using the “primary effect” test, the Court ruled
that the statute “constitutes an impermissible aid to
9

The Court rejected the contention that tuition reimbursements were, for First Amendment purposes, different from direct
tuition payments.

54
religion; this is so because the aid that will be devoted
to secular functions is not identifiable and separable
from aid to sectarian activities.” 413 U.S. at 480.
As is apparent from the foregoing, the focus of the
“primary effect” test is upon the character of the religious institutions involved. Where the institution is
dedicated to the inculcation of religious beliefs, state
aid to that institution presents a serious risk of having
a primary effect of advancing religion simply by virtue
of the fact that it is practically impossible to Isolate
secular functions or purposes from the overriding role
of the sectarian school to promote the tenets of such
religious beliefs. This explains why state aid to sectarian colleges and universities has generally. been upheld while state aid to sectarian elementary and
secondary schools is more likely to be viewed as violating the primary effect test. The United States Supreme
Court has acknowledged that there are “significant differences between the religious. aspects of church-related institutions of higher learning and parochial
elementary and secondary schools.” Tilton v. Richardson, 403 U.S.at 685; Committee For Public Education
v. Nyquist, 413 U.S. at 777 n.32; Hunt v. McNair, 413
U.S. at 734. There tends to be a considerable amount of
academic freedom at church-related colleges and universities and the Court has taken notice of the fact
that, generally, such institutions of higher learning
do not have a pervasive religious atmosphere. Moreover, church-related colleges and universities usually
do not have as their principal function the indoctrination of religious beliefs. Finally, the age of college

55
students is a factor supporting the Supreme Court’s
view that public funds will not be used to influence
one’s religious beliefs. Accordingly, it is much easier in
the college setting to separate the school’s secular functions from its religious mission.
The same cannot be said for church-related elementary and secondary schools. Such schools exist for
the very purpose of teaching and promoting the tenets
of a particular religious faith. The process of education
at religiously operated elementary and secondary
schools is inextricably bound to the task of indoctrinating pupils in the principles of their faith. That task or
mission permeates the entire educational curriculum
and is directed at an age group which is particularly
susceptible to religious indoctrination. It is this pervasiveness’ of religious purpose which is at the heart of
the “primary effect” test.
The “Entanglement” Test
The “entanglement” test appears to have first surfaced in the Supreme Court’s decision in Lemon v.
Kurtzman, 403 U.S. 602 (1971). In applying the “entanglement” test, the Court listed the following factors to
be considered: (a) the character and purposes of the institution receiving state aid, i.e., college or elementary
or secondary school; (b) the nature of the aid provided
(e.g., one lump sum payment or annual grants); (c) the
resulting relationship between the sectarian institution and the government. The statutes at issue in
Lemon I involved a Rhode Island law which provided

56
for a direct 15% reimbursement to teachers in nonpublic elementary and secondary schools, and a Pennsylvania law giving a limited reimbursement to nonpublic elementary and secondary schools for teachers
salaries, text-books and instructional materials. Obviously, the salary reimbursements went only to teachers
in purely secular subjects.
The Court took notice of the distinct possibility
that a teacher in a non-public school will have difficulty in preventing his religious beliefs from “seeping”
into his course of instruction.
“We . . . recognize that a dedicated religious
person, teaching in a school affiliated with his
or her faith and operated to inculcate its tenets, will inevitably experience great difficulty
in remaining religiously neutral. Doctrines
and faith are not inculcated or advanced by
neutrals. With the best of intentions such a
teacher would find it hard to make a total separation between secular teaching and religious doctrine.”
Id. at 618-619.
In order to assure that non-public school teachers,
who have received salary reimbursements, are abiding
by the First Amendment and are not preaching religious doctrines in the classroom, the state would have
to engage in “[a] comprehensive, discriminating and
continuing . . . surveillance.” “Unlike a book, a teacher
cannot be inspected once so as to determine the extent
. . . of his or her personal beliefs and subjective acceptance of the limitations imposed by the First

57
Amendment. These prophylactic contacts will involve
excessive and enduring entanglement between state
and church.” Id. at 619. The Court in Lemon I emphasized that the state must be “certain” that “subsidized
teachers do not inculcate religion.” Id. See also Meek v.
Pittenger, 421 U.S. 349, 370-71. To be “certain” that
non-public school teachers are not using the classroom
to instill religious beliefs, there would have to be almost constant monitoring of church-related schools. It
is this monitoring or surveillance by the government
which entangles it, to an excessive degree, with the
church.
The “entanglement” test is usually applied in
situations where the so-called “human factor” is involved; e.g., classroom teachers and other professionals providing diagnostic tests and therapeutic services.
See Meek v. Pittenger, supra; Wolman v. Walter, 433
U.S. 229 (1977). It is these types of activities which require the most surveillance. Moreover, these activities
tend to be funded on a continuous basis, rather than
on a lump sum basis, thereby adding to the government’s entanglement with church-sponsored schools.
The “Political Divisiveness” Test
In Lemon I the Court also referred to the “potential for political divisiveness” which statutory programs providing for aid to church-related schools are
likely to generate. It is unclear whether the “political
divisiveness” language in the Court’s opinion was
intended to be an independent test under the

58
Establishment Clause or whether it is part of the “entanglement” test. In any event, it has been referred to
by the Court in Lemon I, Roemer and Nyquist. The underlying premise of the “political divisiveness” factor is
that state aid to church-related schools is likely to engender very strong political views about the propriety
of using public money to aid church-related schools.
This is particularly true with respect to elementary
and secondary school education since it is an important issue of local concern. The Court emphasized
that political divisiveness and debate along religious
lines was one of the principal evils which the First
Amendment was intended to eliminate. Finally, the
Court noted that the potential for political differences
along religious lines is more likely to occur where the
state aid is of a continuing nature.
Analysis
Having set forth the criteria by which a statutory
enactment will be measured in order to determine
whether it offends the First Amendment’s Establishment Clause, it is now possible to examine the practice
of contracting with sectarian elementary and secondary schools in light of these criteria.10

10

Implicit in this statement is- the question of what is meant
by the term “sectarian”. As used in this opinion, the term “sectarian” refers to those institutions which are characterized by a
pervasively religious atmosphere and whose dominant purpose is
the promotion of religious beliefs. This issue is discussed in
greater detail in a later section of this opinion.

59
1. The “Purpose” Test
Initially, there would appear to be no difficulty in
concluding that the practice of contracting with sectarian schools for educational services has a secular
purpose. The underlying purpose of such a practice
would appear to be the general education of all elementary and high school students. This purpose is certainly secular in nature and would not violate the
“purpose” test under the First Amendment. See, e.g.,
Sloan v. Lemon, 413 U.S. 825, 829-30 (1973); Committee for Public Education & Religious Liberty v. Nyquist, 413 U.S. at 773; Lemon v. Kurtzman, 403 U.S. 602
(1971).
2. The “Primary Effect” Test
The application of the “primary effect” test to the
practice of contracting for educational services with religiously operated elementary and secondary schools,
presents a much thornier question. In applying the
“primary effect” test to the various forms of statutory
aid which have been reviewed by the United States Supreme Court, the critical factor which has emerged is
the character of the institutions which receive public
funds. See, e.g., Wolman v. Walter, 433 U:S. 229 (1977);
Roemer v. Maryland Public Works Board, 426 U.S. 736
(1976); Meek v. Pittenger, 421 U.S. 349 (1974). Where
an institution is characterized by a pervasively religious atmosphere, the receipt of public funds by that
institution, either directly or indirectly, presents a significant risk that the primary effect of such state aid

60
will be to advance religion in contravention of the Establishment Clause of the First Amendment.
Assuming that a contract is made with a sectarian
school for educational services, the effect of such a contract will be to expend public funds to send students to
a religiously operated elementary or secondary school.
While it is contemplated that such a contract would involve only secular educational services, it would seem
highly unlikely that the school’s secular ‘functions
could be separated from its predominantly religious
purpose. It is difficult to imagine how the practice of
contracting for educational services with religious
schools differs from the tuition reimbursement program invalidated by the United States Supreme Court
in Committee for Public Education v. Nyquist, supra.
Indeed, the effect of such a contract is to make a direct
payment of public money to a sectarian school for the
purpose of providing educational services to elementary and high school students. In striking down a New
York statute which attempted to provide tuition reimbursement to parents who sent their children to nonpublic sectarian schools, the United States Supreme
Court stated:
“There can be no question that these
grants could not, consistently with the Establishment Clause, be given directly to sectarian
schools. . . .”
Committee for Public Education v. Nyquist, 413 U.S. at
780.

61
In view of the foregoing, it is our conclusion that
the practice of contracting with and paying the tuition
of students at sectarian elementary and secondary
schools has a primary effect which advances religion
and, therefore, violates the Establishment Clause of
the First Amendment.
3. The “Entanglement” Test
The practice fares no better under the “entanglement” test adopted by the United States Supreme
Court in Lemon v. Kurtzman, 403 U.S. 602 (1971). In
those instances where elementary and secondary students attend sectarian schools at public expense, the
state would have to engage in a program of constant
surveillance in order to be “certain” that non-public
school teachers were not allowing religious instruction
to “seep” into the secular educational curriculum. It is
such excessive surveillance which entangles the state
in the affairs of church-related schools such that the
First Amendment is violated. Once again, the fact is
that public funds would be expended to send children
to a sectarian school and there would be no effective
means of assuring that the wall of separation between
church and state had not been breached. Accordingly it
is our conclusion that the practice of contracting with
sectarian schools for the purchase of educational services results in excessive entanglement between the
state and such sectarian schools and therefore violates
the First Amendment’s Establishment Clause.

62
4. The “Political Divisiveness” Test
Finally, the practice in question, when applied to
sectarian elementary and secondary schools, could
very well engender the type of political divisiveness
along religious lines which the Supreme Court has indicated the First Amendment seeks to avoid. Members of a local community tend to divide sharply on
religious issues and it is easy to envision a situation
in which members of a local community differ widely
on whether public money should be expended to send
students to religiously operated elementary and secondary schools. Such political divisiveness could be
exacerbated by the fact that the duration of some contracts with sectarian schools could extend over a period of years.
Based upon the decisions of the United States Supreme Court, as examined above, it is our conclusion
that the practice of paying the tuition of students attending sectarian elementary and secondary schools
violates the Establishment Clause of the First Amendment to the United States Constitution.
State Court Decisions
As additional support for our conclusion it should
be observed that the Justices of the Maine Supreme
Court have issued an opinion on proposed legislation
which would have authorized the making of contracts
with sectarian schools for secular educational services.
In 1970 the 104th Legislature considered enacting L.D.
1751 (H.P. 1394) being “An Act Creating the Nonpublic

63
Elementary Education Assistance Act”. This proposed
Act would have permitted administrative units “to contract and pay for secular education service.” The use of
this contractual authority was limited to situations
where the local school committee had determined that
the closing of a non-public school would have an adverse impact on the local tax rate or on classroom space
in the public school system. In view of the possibility
that the proposed Act implicated First Amendment
concerns, the Legislature requested an advisory opinion from the Justices of the Supreme Judicial Court. In
Opinion of the Justices, Me., 261 A.2d 58 (1970), the
Justices responded with four of them concluding that
the proposed legislation violated the Establishment
Clause and two of them reaching the opposite result.11
Mr. Chief Justice Williamson and Justices Marden
and Weatherbee were of the opinion that the proposed
Act ran afoul of both the “purpose” and the “primary
effect” tests.
“Budgets for the secular instruction may
be technically separable from the budget of
the entire operation of the [sectarian] schools,
but the institution is an inseparable whole,
which is strengthened in its institutional

11

It should be noted that the Opinion was issued while
Lemon v. Kurtzman was pending before the United States Supreme Court. Consequently, the Justices did not have the benefit
of a clear application of the “entanglement” test. All of the Justices appeared to have recognized the importance of the Lemon
case. In fact, Mr. Chief Justice Williamson was of the opinion that
Lemon would be totally dispositive of the issue.

64
purpose when it is strengthened in any of its
departments by outside financial assistance.”
261 A.2d at 67.
Mr. Justice Webber reached a similar conclusion
in, a separate answer in which he stated that “my concern is that what in the legislative proposal is termed
a contract for secular educational service will be
viewed as in reality a method for providing public aid
to a sectarian school in support of all of its purposes.”
251 A.2d at 69.
Former Chief Justice Dufresne and Mr. Justice
Pomeroy were of the view that the proposed Act did
not offend the First Amendment. Both Justices relied
heavily on the lower court’s decision in Lemon v. Kurtzman which was later reversed by the United States Supreme Court. In view of the decision in Lemon I, and
later Supreme Court cases, it is probable that the opinions of Justices Dufresne and Pomeroy would be different today.
While there are many differences between the proposed Act examined by the Supreme Judicial Court in
Opinion of the Justices, supra, and the practice now
under consideration, they both involved contracts with
sectarian schools for secular educational services.
Based upon the Justices Opinion and the Supreme
Court’s decisions in Lemon v. Kurtzman and Committee for Public Education v. Nyquist, there would appear to be a strong likelihood that the Law Court, if
given the opportunity, would invalidate the practice

65
of contracting for educational services with sectarian
elementary and secondary schools.
Finally, courts in other jurisdictions have uniformly held that statutes authorizing contracts with
sectarian schools for secular educational services offend the Establishment Clause of the First Amendment. See, e.g., John v. Sanders, 319 F.Supp. 421, 430
(D.Conn.), aff ’d, 403 U.S. 955 (1970); Opinion of the
Justices, 357 Mass. 836, 258 N.E.2d 779 (1970); In Re
Proposal C, 384 Mich. 390, 185 N.W.2d 9 (1971); Swart
v. South Burlington Town School District, Vt., 167 A.2d
514 (1961).
Conclusion
The following will summarize our conclusions regarding the constitutionality of the practice of using
public funds to contract with and pay for the tuition
of students at sectarian elementary and secondary
schools. We conclude: that the practice has a secular
purpose and does not offend the First Amendment on
that ground; that the practice has a primary effect
which advances religion and violates the Establishment Clause of the First Amendment on that ground;
that the practice produces excessive entanglement between the State and sectarian schools, and, consequently, violates the First Amendment on that ground.
Finally, we note that the practice carries the potential
for generating political divisiveness along religious
lines and may violate the First Amendment on that basis also.

66
As discussed previously,12 it is a fundamental
canon of statutory construction that legislation is to
be interpreted, if possible, so as to avoid rendering it
unconstitutional. Where a statute is susceptible of two
interpretations, the courts are bound to adopt that
interpretation which sustains the statute’s constitutionality. In view of our conclusion that the practice
of contracting with sectarian elementary and secondary schools for educational services offends the First
Amendment, it is now necessary to determine whether
sections 213-A, 912, 1289, 1291 or 1454 of Title 20
authorize school administrative units or districts to
engage in such a practice. Each statute authorizes administrative units or districts or the Commissioner of
Education, in limited situations, to pay the tuition for
students at a private academy or at some other approved elementary or secondary school. None of the
statutes explicitly include or exclude sectarian schools
from operation. To interpret the statutes as permitting
school administrative units and districts to contract
with sectarian schools for educational services would
render them at least partially unconstitutional. On the
other hand, an interpretation does not authorize such
a practice is a reasonable construction of the statutes
and is consistent with the favored rule that statutory
enactments should be construed, whenever possible, so
as to uphold their constitutional validity.
In light of our conclusion that the practice of contracting with and paying the tuition for students at
12

See pages 3-5 supra.

67
sectarian elementary and secondary schools is unconstitutional, we interpret 20 M.R.S.A. §§213-A, 912,
1289, 1291 and 1454 (1965-1979 Supp.) as not authorizing such a practice.13 As so interpreted, it is our conclusion that sections 213-A, 912, 1289, 1291 and 1454
of Title 20 do not violate the First Amendment.
Application of Opinion
During the course of this opinion, we have repeatedly referred to “sectarian” elementary and secondary
schools and have concluded that the practice of using
public funds to send students to such schools is unconstitutional. As used in this opinion and in the decisions
of the United States Supreme Court, the term “sectarian” refers to those institutions which are characterized by a pervasively religious atmosphere and
whose dominant purpose is the promotion of religious
beliefs. The question of whether a particular school is
pervasively religious in nature is a factual one and
13

Even assuming that the statutes are interpreted as permitting school administrative units and districts to contract with
sectarian schools, our conclusion that the practice is unconstitutional would remain unchanged. Moreover, any provision of the
statutes deemed violative of the First Amendment would be severable from other statutory provisions. See 1 M.R.S.A. §71(8)
(1979) which provides:
“The provisions of the statutes are severable. The
provisions of any session law are severable. If any provision of the statutes or of a session law is invalid, or if
the application-of either to any person or circumstance
is invalid, such invalidity shall not affect other provisions or applications which can be given effect without
the invalid provision or application.”

68
must be determined on an individual basis. See, e.g.,
Weiss v. Bruno, 82 Wash.2d 199, 409 P.2d 973, 979-89
(1973). It is, of course, conceivable that. there may exist
elementary and secondary schools which are religiously affiliated to a nominal degree only and are not
necessarily characterized by a pervasively religious atmosphere. Within the context of this opinion, however,
it is simply not possible to examine each religiously affiliated school to determine whether it is pervasively
sectarian for First Amendment purposes.14
I hope this information is helpful to you. Please
feel free to call upon me if I can be of further assistance.
Sincerely,
/s/ Richard S. Cohen
RICHARD S. COHEN
Attorney General

14

The United States Supreme Court has had no difficulty in
concluding that those institutions which might be described as
typical “parochial” or “religious” schools are pervasively sectarian. As noted above, however, there may be situations where a
school is only nominally affiliated with a religious organization,
and such nominal affiliation mov he insufficient to characterize
the school as a pervasively sectarian institution.

69
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MAINE
DAVID and AMY CARSON, )
et al.,
)
)
Plaintiffs,
)
v.
)
)
A. PENDER MAKIN,
)
in her official capacity as
Commissioner of the Maine )
)
Department of Education,
)
Defendant.
)

Civil Action No.
18-cv-00327 DBH

JOINT STIPULATED FACTS
(Filed Mar. 15, 2019)
Solely for purposes of resolution of the parties’
cross-motions for summary judgment, the plaintiffs
and defendant stipulate to each of the following facts:1
Facts About Publicly Funded Education in Maine
1.

Pursuant to 20-A M.R.S.A. § 2(1), “[i]t is the intent of the Legislature that every person within
the age limitations prescribed by state statues
shall be provided an opportunity to receive the

1

By stipulating to these facts, the parties do not concede that
the facts are relevant or material, and the parties reserve the
right to dispute the relevance and/or materiality of any stipulated
fact. The parties also reserve the right to supplement the record
when they file their motions and opposition briefs.

70
benefits of a free public education.” Doc. No. 8,
PageID# 38 (Ans. ¶ 16).
2.

Pursuant to 20-A M.R.S.A. § 2(2), “[i]t is the intent of the Legislature that the control and management of the public schools shall be vested in
the legislative and governing bodies of local
school administrative units, as long as those
units are in compliance with appropriate state
statutes.” Doc. No. 8, PageID# 38 – 39 (Ans. ¶ 17).

3.

Pursuant to 20-A M.R.S.A. § 1(26), school administrative unit (“SAU”) means a state-approved
unit of school administration.

4.

There are 260 SAUs in Maine.

5.

Pursuant to 20-A M.R.S.A. § 1001(8), SAUs “shall
either operate programs in kindergarten and
grades one to 12 or otherwise provide for students to participate in those grades as authorized
elsewhere in this Title.” Doc. No. 8, PageID# 39
(Ans. ¶ 18).

6.

Of the 260 SAUs, 143 do not operate a secondary
school, including the SAUs that serve the towns
in which Plaintiffs reside: Glenburn, Orrington,
and Palermo. Doc. No. 8, PageID# 39 (Ans. ¶ 19).

7.

Pursuant to 20-A M.R.S.A. § 5204(4), an SAU
“that neither maintains a secondary school nor
contracts for secondary school privileges pursuant to chapter 115 shall pay the tuition, in accordance with chapter 219, at the public school or
the approved private school of the parent’s choice
at which the student is accepted.” Doc. No. 8,
PageID# 39 (Ans. ¶ 20).

71
8.

Pursuant to the plain language of 20-A M.R.S.A.
§ 5204(4), SAUs may not pay tuition to a private
school unless the school is selected by the resident student’s parents. Doc. No. 8, PageID# 39
(Ans. ¶ 20).

9.

The SAUs that serve the towns in which Plaintiffs reside do not contract for secondary school
privileges with any particular public or private
secondary school for the education of their resident secondary students. Doc. No. 8, PageID# 41
(Ans. ¶ 25).

10.

The SAUs that serve the towns in which Plaintiffs reside are obligated to pay up to the legal tuition rate, established pursuant to 20-A M.R.S.A.
§ 5805 and 20-A M.R.S.A. § 5806, to the public or
private school approved for tuition purposes selected by the resident secondary student’s parents. Doc. No. 8, PageID# 41 (Ans. ¶ 27).

11.

20-A M.R.S.A. § 5001-A(3)(A)(1)(b) permits the
Department of Education to recognize private
schools as providing equivalent instruction for
purposes of meeting the requirements of compulsory school attendance under 20-A M.R.S.A.
§ 5001-A. Doc. No. 8, PageID# 43 (Ans. ¶ 39).

12.

20-A M.R.S.A. § 2901 lays out the requirements
for a private school to operate as an approved private school for meeting the requirement of compulsory school attendance under 20-A M.R.S.A.
§ 5001-A(3)(A)(1)(a). Doc. No. 8, PageID# 40 – 41
(Ans. ¶ 22).

13.

20-A M.R.S.A. § 2951 contains the requirements
for a private school to be approved to receive

72
public funds for tuition purposes when resident
secondary student’s parents select an approved
school. Doc. No. 8, PageID# 39 – 40 (Ans. ¶ 21).
14.

20-A M.R.S.A. § 2951(2) states, in pertinent part,
that “[a] private school may be approved for the
receipt of funds for tuition purposes only if it: . . .
[i]s a nonsectarian school in accordance with the
First Amendment of the United States Constitution.” Doc. No. 8, PageID# 41 (Ans. ¶ 24).

15.

Exhibit 2 to the Stipulated Record (Doc. No. 24-2,
PageID# 164 – 167) contains a true and accurate
copy of the Department’s 2018-2019 Annual
School Approval Report for private schools.

16.

SAUs are not allowed to pay tuition to a private
school that is not approved for the receipt of public funds for tuition purposes pursuant to 20-A
M.R.S.A. § 2951. Doc. No. 8, PageID# 41 (Ans.
¶ 24).

17.

The Defendant Commissioner of Education is responsible for enforcing the requirements of 20-A
M.R.S.A. § 2951. Doc. No. 8, PageID# 37 (Ans.
¶ 3).

18.

Prior to 1980, some sectarian schools received
public funds for tuition purposes when resident
secondary students’ parents selected those sectarian schools. Doc. No. 8, PageID# 44 (Ans. ¶ 42)

19.

In 1979-1980, 211 students received funding
from the State of Maine for tuition to sectarian
secondary schools that were selected by the students’ parents. Stipulated Record (“SR”), Ex. 4
(Doc. 24-4, PageID# 227 (RFA 1)).

73
20.

In 2017-18, nearly 180,000 students in grades K12 were educated at public expense.

21.

Of these, 4,546 secondary students (grades 9-12)
attended a private school approved for tuition
purposes. SR, Ex. 2 (Doc. No. 24-2, PageID# 206
(D000043)).

22.

Over 95% of those 4,546 secondary students attended a handful of private schools colloquially
referred to as the “town academies” or the “Big
11.”

23.

Over the past five school years, families in Glenburn chose to send their secondary school students to twelve nearby public and private high
schools, with the majority going to Bangor High
School (public), John Bapst Memorial High
School (which, despite its name, is non-sectarian
and private), and Orono High School (public). SR,
Ex. 2 (Doc. No. 24-2, PageID# 212 (D000049)).

24.

Over the past five school years, families in Orrington chose to send their secondary school students to nine nearby public and private high
schools, with the majority going to Brewer High
School (public) and John Bapst Memorial High
School (private). SR, Ex. 2, (Doc. No. 24-2,
PageID# 212 (D000049)).

25.

Over the past five school years, families in RSU
12/Palermo2 chose to send their secondary school
students to eleven nearby public and private high
schools, with the majority going to Erskine
2

A regional school unit (“RSU”) is a type of SAU in which
two or more municipalities combine to pool their educational resources to educate students.

74
Academy (private). SR, Ex. 2 (Doc. No. 24-2,
PageID# 212 (D000049)).
Facts About the Plaintiffs
26.

David and Amy Carson are a married couple who
reside in Glenburn, Maine. SR, Ex. 5 (Doc. No. 245, PageID# 237 (Carson 7:8 – 12)).

27.

The Carsons’ daughter, O.C.,3 is a high-school
sophomore at Bangor Christian Schools (“BCS”).
SR, Ex. 5, Doc. No. 24-5, PageID# 243 (Carson
13:12 – 17)).

28.

BCS is the only school O.C. has ever attended.
SR, Ex. 5 (Doc. No. 24-5, PageID# 243 – 244 (Carson 13:10 – 14:8)).

29.

The Carsons send O.C. to BCS because the
school’s Christian worldview aligns with their
sincerely held religious beliefs and because of the
school’s high academic standards. Doc. No. 1,
PageID# 2 (Compl. ¶ 7).

30.

The Carsons pay the tuition for O.C. to BCS. Doc.
No. 1, PageID# 10 (Compl. ¶ 49).

31.

David Carson is a member of Crosspoint Church
in Bangor, Maine. SR, Ex. 5 (Doc. No. 24-5,
PageID# 240 (Carson 10:19 – 22)).

32.

David Carson attends church services at
Crosspoint Church twice a year, and his wife,
Amy, never attends church services at Crosspoint

3

Plaintiffs’ minor children are identified by their initials
pursuant to Local Rule 5.2(a)(3).

75
Church. SR, Ex. 5 (Doc. No. 24-5, PageID# 241 –
242 (Carson 11:21 – 12:6)).
33.

The reason David Carson does not attend church
very frequently is the passing of a daughter when
he and Amy were younger. SR, Ex. 5 (Doc. No. 245, PageID# 243 (Carson 13:3 – 9)).

34.

O.C. attends weekly youth group services at
Crosspoint Church. SR, Ex. 5 (Doc. No. 245,
PageID# 242 – 243 (Carson 12:7 – 12; 13:2)).

35.

The Carsons and O.C. consider themselves bornagain Christians. SR, Ex. 5 (Doc. No. 24-5,
PageID# 244 (Carson 14:15 – 20)).

36.

The Carsons’ religion does not require them to
send their daughter, O.C., to a Christian school
and does not prevent them from sending her to a
public school. SR, Ex. 5 (Doc. No. 24-5, PageID#
244 – 255 (Carson 14:24 – 15:5)).

37.

The Carsons both attended and graduated from
BCS. SR, Ex. 5 (Doc. No. 24-5, PageID# 238 – 239
(Carson 8:3 – 6; 9:22 – 25)).

38.

The Carsons believe that BCS teaches students
what it means to be a Christian, that the Bible
represents the Word of God, that students
should conform their behavior to what is said in
the Bible, and that in order to be Christian students must accept Jesus Christ as their savior.
SR, Ex. 5 (Doc. No. 24-5, PageID# 245 (Carson
15:9 – 25)).

39.

The Carsons see as a benefit the fact that BCS
teaches Christian values. SR, Ex. 5 (Doc. No. 245, PageID# 246 (Carson 16:1 – 5)).

76
40.

The Carsons believe that BCS is helping their
daughter, O.C., become a better Christian. SR,
Ex. 5 (Doc. No. 24-5, PageID# 246 (Carson 16:8 –
10)).

41.

The closest public school to the Carsons is Bangor
High and the Carsons believe that Bangor High
provides a good education. SR, Ex. 5 (Doc. No. 245, PageID# 247 – 248 (Carson 17:23 – 18:6)).

42.

Alan and Judith Gillis are a married couple who
reside in Orrington, Maine. SR, Ex. 6 (Doc. No.
24-6, PageID# 267; 270 (Gillis 5:9 – 11; 8:4 – 7)).

43.

The Gillises’ youngest daughter, I.G., is a highschool junior at BCS. SR, Ex. 6 (Doc. No. 24-6,
PageID# 276 (Gillis 14:7 – 12)).

44.

The Gillises send I.G. to BCS because the school’s
Christian worldview aligns with their sincerely
held religious beliefs and because of the school’s
high academic standards. Doc. No. 1, PageID# 2 –
3 (Compl. ¶ 8).

45.

The Gilleses pay the tuition for I.G. to attend
BCS. SR, Ex. 6 (Doc. No. 24-6, PageID# 284 (Gillis
22:2 – 5)).

46.

I.G. does not receive any fmancial aid or scholarships to help offset the cost of tuition. SR, Ex. 6
(Doc. No. 24-6, PageID# 284 – 285 (Gillis 22:16 –
23:2)).

47.

The Gillesses and I.G. attend Crosspoint Church
in Bangor, Maine. SR, Ex. 6 (Doc. No. 24-6,
PageID# 275 (Gillis 13:5 – 10)).

48.

The Gillises’ daughter, I.G., did not begin attending BCS until the 4th quarter of her freshman

77
year. SR, Ex. 6 (Doc. No. 24-6, PageID# 276 (Gillis
14:7 – 12)).
49.

Before starting at BCS, the Gillises’ daughter,
I.G., attended public schools. SR, Ex. 6 (Doc. No.
24-6, PageID# 276 – 277 (Gillis 14:17 – 15:12)).

50.

One motivating factor in the Gillises’ decision to
transfer I.G. from her public school to BCS was
that I.G. was being bullied in her public school
because of her Christian beliefs. SR, Ex. 6 (Doc.
No. 24-6, PageID# 277 – 278 (Gillis 15:13 – 16:1)).

51.

The Gillises’ three other children all attended
public high schools. SR, Ex. 6 (Doc. No. 24-6,
PageID# 279 – 280 (Gillis 17:19 – 18:3)).

52.

Nothing in the Gillises’ religion requires them to
send their children to a religious school. SR, Ex.
6 (Doc. No. 24-6, PageID# 282 (Gillis 20:15 – 21)).

53.

The Gillises believe that BCS provides instruction on how to live one’s life as a Christian, and
in their opinion that is an underlying part of the
school. SR, Ex. 6 (Doc. No. 24-6, PageID# 288 (Gillis 26:19 – 25)).

54.

The Gillises believe that BCS teaches children
that to become Christians they must accept Jesus
Christ as their savior. SR, Ex. 6 (Doc. No. 24-6,
PageID# 289 (Gillis 27:1 – 7)).

55.

The Gillises believe that BCS teaches children
that the Bible is the Word of God, that Christians
need to follow what is written in the Bible, and
that children who attend BCS should model their
lives in accordance with what is written in the

78
Bible. SR, Ex. 6 (Doc. No. 24-6, PageID# 289 (Gillis 27:8 – 18)).
56.

The Gillises believe that non-Christian students
attend BCS. SR, Ex. 6 (Doc. No. 24-6, PageID#
286 (Gillis 24:8 – 11)).

57.

The Gillises’ belief that non-Christian students
attend BCS is based on their impression that one
of I.G.’s friends at BCS does not attend church
and that the friend and his family are not Christian. SR, Ex. 6 (Doc. No. 24-6, PageID# 286 (Gillis
24:12 – 17)).

58.

Troy and Angela Nelson are a married couple
who reside in Palermo, Maine. SR, Ex. 7 (Doc.
No. 24-7, PageID# 310; 312 (Nelson 4:13; 6:17 –
19)).

59.

The Nelsons attend Central Church in China,
Maine. SR, Ex. 7 (Doc. No. 24-7, Page ID# 314
(Nelson 8:13 – 20)).

60.

The Nelsons’ daughter, A.N., is currently a highschool sophomore who attends Erskine Academy,
a secular private school. Doc. No. 1, PageID# 3
(Compl. ¶ 9).

61.

The Nelsons do not dispute the quality of secular
education their daughter receives at Erskine –
believing it provides a good quality education.
SR, Ex. 7 (Doc. No. 24-7, PageID# 325 (Nelson
19:10 – 18)).

62.

The Nelsons send their seventh-grade son, R.N.,
to Temple Academy because they believe it offers him a great education that aligns with
their sincerely held religious beliefs. Doc. No. 1,

79
PageID# 3 (Compl. ¶ 9); SR, Ex. 7 (Doc. No. 24-7,
PageID# 308; 314 – 315 (Nelson 2:14 – 16; 8:13 –
9:17)).
63.

The Nelsons pay the tuition for R.N. to attend
Temple Academy and also perform 50 hours of
volunteer work each year for Temple Academy.
SR, Ex. 7 (Doc. No. 24-7, PageID# 321 (Nelson
15:16 – 22)).

64.

The Nelsons and R.N. do not receive any financial
aid to offset the cost of tuition. SR, Ex. 7 (Doc. No.
24-7, PageID# 322 (Nelson 16:9 – 16)).

65.

The Nelsons would like to send their daughter,
A.N., to Temple Academy, because of the quality
of education and the discipline, but cannot afford
the cost of tuition for both of their children. SR,
Ex. 7 (Doc. No. 24-7, PageID# 326 (Nelson 20:10
– 15)); Doc. No. 1, PageID# 3 (Compl. ¶ 9).

66.

But for the sectarian exclusion codified at 20-A
M.R. S.A. § 2951(2), Plaintiffs would have asked
their respective SAUs to pay the tuition to their
respective sectarian schools. Doc. No. 1, PageID#
10 (Compl. ¶ 46).

67.

It would be futile for Plaintiffs to request that
their SAUs pay tuition to BCS or Temple Academy because both schools qualify as sectarian
pursuant to 20-A M.R.S.A. § 2951(2). SR, Ex. 4
(Doc. No. 24-4, PageID# 228 (RFA 4 & 5)).

80
Facts Relating to Bangor Christian Schools
68.

BCS is a sectarian school for purposes of 20-A
M.R.S.A. § 2951(2) and thus cannot be approved
for tuition purposes. SR, Ex. 4 (Doc. No. 24-4,
PageID# 228 (RFA 4)).

69.

BCS was founded in 1970 as a ministry of the
Bangor Baptist Church (now Crosspoint Church).
SR, Ex. 11 (Doc. No. 24-11, PageID# 420
(BDS000068); SR, Ex. 12 (Doc. No. 24-12,
PageID# 465 (BDS000013)).

70.

BCS “is now into its fifth decade of training young
men and women to serve the Lord.” SR, Ex. 12
(Doc. No. 24-12, PageID# 465 (BDS000013)).

71.

Members of Crosspoint Church do not receive a
discount on tuition to BCS. SR, Ex. 8 (Doc. No. 248, PageID# 374 (Benjamin 33:4 – 6)).

72.

BCS is accredited by the New England Association of Schools and Colleges (“NEASC”). SR, Ex.
8 (Doc. No. 24-8, PageID# 377 (Benjamin 36:11 –
21)).

73.

The Department of Education considers BCS a
“private school approved for attendance purposes” pursuant to 20A M.R.S.A. §§ 5001A(3)(A)(1)(a) and 2901 based, in part, on BCS being accredited by NEASC. Doc. No. 8, PageID# 42
(Ans. ¶ 32).

74.

Exhibit 15 to the Stipulated Record (Doc. No. 2415) is a true and accurate copy of BCS’ Application for Admission.

81
75.

Exhibit 12 to the Stipulated Record (Doc. No. 2412) is a true and accurate copy of BCS’ Student
Handbook.

76.

The Head of School of BCS reports to Crosspoint
Church’s Senior Pastor and Deacon Board. SR,
Ex. 8 (Doc. No. 24-8, PageID# 349 – 350 (Benjamin 8:24 – 9:1)).

77.

The Deacon Board approves BCS’ tuition and the
budget. SR, Ex. 8 (Doc. No. 24-8, PageID# 374
(Benjamin 33:1 – 3)).

78.

Only men are eligible to serve on the Deacon
Board. SR, Ex. 8 (Doc. No. 24-8, PageID# 385 –
386 (Benjamin 44:17 – 45:3)).

79.

BCS believes that God has ordained distinct and
separate spiritual functions for men and
women, and the husband is to be the leader of
the home and men are to be the leaders of the
church. SR, Ex. 12 (Doc. No. 24-12, PageID# 469
(BDS000017)).

80.

BCS’ Head of School’s employment agreement is
with Crosspoint Church. SR, Ex. 8 (Doc. No. 24-8,
PageID# 350 (Benjamin 9:7 – 8)).

81.

BSC’ Head of School is also the Connections
Pastor for Crosspoint Church. SR, Ex. 8 (Doc. No.
24-8, PageID# 351 (Benjamin 10:4 – 8)).

82.

BCS has an Advisory Board with no policymaking authority – its role is to advise BCS’ administration. SR, Ex. 8 (Doc. 24-8, PageID# 352
(Benjamin 11:1 – 12).

82
83.

Exhibit 11 to the Stipulated Record (Doc. No. 2411) is a true and accurate copy of BCS’ Faculty
Manual.

84.

BCS’ admissions policy states that it admits students of any race, color, or national or ethnic
origin, but it is silent with respect to whether it
discriminates on the basis of gender, gender-identity, sexual orientation, or religion. SR, Ex. 11
(Doc. No. 24-11, PageID# 432 (BDS000080)).

85.

BCS’ mission “is to assist families in educating
the whole child by encouraging spiritual maturity and academic excellence in a supportive
environment” and the Bible is BCS’ “final authority in all matters.” SR, Ex. 8 (Doc. No. 24-8,
PageID# 365 (Benjamin 24:3 – 6)).

86.

Prior to admitting any student, BCS officials
meet with the student and his or her family to
explain BCS’ mission and goal of instilling a Biblical worldview in BCS’ students in order to try
and determine if the school is a good fit for the
student. SR, Ex. 8 (Doc. No. 24-8, PageID# 365 –
366 (Benjamin 24:3 – 18; 25:13 – 17)).

87.

BCS does not require students to profess to be
born-again Christians as a condition of admission. SR, Ex. 8, (Doc. No. 24-8, PageID# 365 – 366
(Benjamin 24:25 – 25:1)).

88.

BCS is willing to consider admitting students
from any religious background or faith so long as
they are willing to support BCS’ philosophy of
Christian education and conduct. SR, Ex. 8 (Doc.
No. 24-8, PageID# 370 (Benjamin 29:6 – 16)).

83
89.

BCS believes that a student who is homosexual
or identifies as a gender other than on his or her
original birth certificate would not be able to sign
the agreement governing codes of conduct that
BCS requires as a condition of admission. SR, Ex.
8 (Doc. No. 24-8, PageID# 370 – 371 (Benjamin
29:25 – 30:15)).

90.

At BCS, presenting oneself as a gender other
than the one listed on his or her original birth
certificate, whether done on the school grounds or
off school grounds, “may lead to immediate suspension and probable expulsion.” SR, Ex. 12 (Doc.
No. 24-12, PageID# 485 (BDS000033)).

91.

If a student presented himself or herself as a gender other than that on his or her original birth
certificate, and refused to stop presenting himself
or herself as a gender other than that on said
birth certificate after conversations and counseling with school staff, the student would not be allowed to continue attending BCS – just as a
student who insisted on drinking every weekend
would not be allowed to continue attending the
school. SR, Ex. 16 (Doc. No. 24-16, PageID# 542
(Boone 23:1 – 21)).

92.

If a student was openly gay and regularly communicated that fact in the school environment to
his or her classmates, “that would fall under an
immoral activity” under BCS’ Statement of Faith
and if “there was no change in the student’s position” after counseling the student would not be
allowed to continue attending BCS. SR, Ex. 16
(Doc. No. 24-16, PageID# 542 – 543 (Boone 23:22
– 24:14)).

84
93.

An openly gay student who regularly communicated that fact in the school environment to his
or her classmates would receive counseling, but if
the student was “entrenched in this is who I am,
I think that it is right and good” the student
would not be allowed to continue attending BCS
because “it clearly goes against [BCS’] Biblical
beliefs” – even if the student was celibate and did
not engage in homosexual acts. SR, Ex. 16 (Doc.
No. 24-16, PageID# 543 – 544 (Boone 24:20 –
25:11)).

94.

BCS may require the withdrawal at any time of
a student “who, in the opinion of the school, does
not fit into the spirit of the institution, regardless
of whether or not he/she conforms to the specific
rules and regulations of Bangor Christian
Schools.” SR, Ex. 12 (Doc. No. 24-12, PageID# 504
– 505 (BDS000052 – 53)).

95.

Among the objectives of BCS are to teach students to be good Christians, to promote Christian
values, and to develop Christian leadership. SR,
Ex. 16 (Doc. No. 24-16, PageID# 528 (Boone 9:7 –
14)).

96.

Among BCS’ other educational objectives are to
1) “lead each unsaved student to trust Christ as
his/her personal savior and then to follow Christ
as Lord of his/her life”; 2) “develop within each
student a Christian world view and Christian
philosophy of life”; 3) “prepare each student for
the important position in life of spiritual leadership in school, home, church, community, state,
nation, and the world”; 4) “provide each student
opportunities for developing skills necessary for

85
their future careers”; 5) “teach each student the
thinking skills that will enable him/her to meet
intellectual challenges”; and 6) “provide each student opportunities to develop an understanding
of and appreciation for the arts as well as contributing to them.” SR, Ex. 12 (Doc. No. 24-12,
PageID# 470 (BDS000018)).
97.

Students at BCS “will be placed on academic probation for the next grading period when at the
end of a nine week grading period they have
earned: A. An overall grade average below 75%.
B. An F in any course. C. A grade below 75% in
Bible.” SR, Ex. 12 (Doc. No. 24-12, PageID# 478
(BDS000026)).

98.

Bible is singled out because from BCS’ perspective, “that is the primary thing in our school.” SR,
Ex. 16 (Doc. No. 24-16, PageID# 528 (Boone
9:24)).

99.

BCS believes there are a lot of reasons for families to want to send their children to BCS, but
from BCS’ perspective, the main reason parents
send their children to BCS is to develop a biblical
worldview. SR, Ex. 8 (Doc. No. 24-8, PageID# 367
(Benjamin 26:7 – 13)).

100. BCS believes that another reason for families to
want to send their children to BCS is the school’s
strong academics. SR, Ex. 8 (Doc. No. 24-8,
PageID# 367 (Benjamin 26:9 – 15)).
101. BCS does not believe there is any way to separate
the religious instruction from the academic instruction at BCS. From BCS’ perspective, religious instruction is completely intertwined and

86
there is no way for a student to succeed if he or
she is resistant to the sectarian instruction. SR,
Ex. 16 (Doc. No. 24-16, PageID# 539 (Boone 20:13
– 21)).
102. BCS teaches children that the husband is the
leader of the household. SR, Ex. 16 (Doc. No. 2416, PageID# 526 – 528 (Boone 7:19 – 9:1)).
103. At BCS, attending chapel is mandatory. SR, Ex.
16 (Doc. No. 24-16, PageID# 544 (Boone 25:15 –
16)).
104. BCS teaches students they should spread Christianity in the world. SR, Ex. 16 (Doc. No. 24-16,
PageID# 544 (Boone 25:17 – 23)).
105. Exhibit 17 to the Stipulated Record (Doc. No. 2417) is a true and accurate copy of BCS’ Bible
Class Curriculum for Grades 1-8.
106. Exhibit 18 to the Stipulated Record (Doc. No. 2418) is a true and accurate copy of BCS’ Bible
Class Curriculum for High School.
107. Exhibit 19 to the Stipulated Record (Doc. No. 2419) is a true and accurate copy of BCS’ Earth Sciences Curriculum.
108. Exhibit 20 to the Stipulated Record (Doc. No. 2420) is a true and accurate copy of BCS’ Fourth
Grade Social Studies Curriculum.
109. Exhibit 21 to the Stipulated Record (Doc. No. 2421) is a true and accurate copy of BCS’ Fifth
Grade Social Studies Curriculum.

87
110. Exhibit 22 to the Stipulated Record (Doc. No. 2422) is a true and accurate copy of BCS’ Ninth
Grade Social Studies Curriculum.
111. Exhibit 23 to the Stipulated Record (Doc. No. 2423) is a true and accurate copy of BCS’ Tenth
Grade Government Curriculum.
112. One of the objectives for students in the fourthgrade social studies class at BCS is to “[r]ecognize
that God has ordained evangelism.” SR, Ex. 20
(Doc. No. 24-20, PageID# 645 (BDS000742)).
113. Other objectives for students in the fourth-grade
social studies class at BCS include, inter alia, being able to “[i]dentify and label the continents
and oceans on a map”; “[i]dentify American Indians as the only true Native Americans”; “[r]ecognize that the heritage of the United States has
been shaped by people who have emigrated from
many parts of the world”; and to “[e]xamine [the]
process of entering the United States through Ellis Island.” SR, Ex. 20 (Doc. No. 24-20, PageID#
643 – 644 (BDS000740 – 41)).
114. One of the objectives for students in the fifthgrade social studies class at BCS is to “[r]ecognize
God as Creator of the world.” SR, Ex. 21 (Doc. No.
24-21, PageID# 655 (BDS000751)).
115. Other objectives for students in the fifth-grade
social studies class at BCS include, inter alia, being able to “[r]ecognize and tell time in different
time zones”; “[m]easure distances using map
scales”; [s]ummarize [the] events that led up to
[the] United States to enter [World] [W]ar [I]”;
and to [e]xamine the dictatorships of Stalin,

88
Mussolini, Hitler and Hirohito.” SR, Ex. 21 (Doc.
No. 24-21, PageID# 655 – 662 (BDS000751 – 58)).
116. One of the objectives for students in the ninthgrade social studies class at BCS is to “[r]efute
the teachings of the Islamic religion with the
truth of God’s Word.” SR, Ex. 22 (Doc. No. 24-22,
PageID# 669 (BDS000788)).
117. Other objectives for students in the ninth-grade
social studies class at BCS include, inter alia, being able to “[o]utline the major periods in Greek
history”; [c]ontrast Roman civilization with
Greek civilization”; “[l]ist important events in
the life of Muhammad and the early history of
Islam”; and “[i]dentify the cultural contributions
of the Byzantine and Islamic civilizations.” SR,
Ex. 22 (Doc. No. 24-22, PageID# 668 – 669
(BDS000787 – 88)).
118. One of the objectives for students in the tenthgrade government class at BCS is to “[d]etermine
a Christian framework for determining and executing foreign policy.” SR, Ex. 23 (Doc. No. 24-23,
PageID# 683 (BDS 000812)).
119. Other objectives for students in the tenth-grade
government class at BCS include, inter alia, being able to “[e]xplain why government is necessary”; “[e]xplain a citizen’s obligations to the
government”; “[e]xplain the original purpose of
education in American colonies”; and “[d]istinguish between a republic and democracy.” SR, Ex.
23 (Doc. No. 24-23, PageID# 675 (BDS000804)).
120. One of the objectives for students in the earth
science class at BCS is to “[e]xplain how special

89
layers in the atmosphere are evidence of God’s
good design.” SR, Ex. 19 (Doc. No. 24-19, PageID#
631 (BDS001142)).
121. Other objectives for students in the earth science
class at BCS include, inter alia, being able to
“[d]escribe how people can affect the atmosphere”; “[s]ubdivide the atmosphere and describe
the structure and function of each layer”;
[e]xplain how each layer of the atmosphere benefits humans and other living creatures” and
“Mabel and distinguish between evaporation, vaporization, sublimation, condensation, freezing
and melting.” SR, Ex. 19 (Doc. No. 24-19, PageID#
630 – 631 (BDS001142)).
122. Exhibit 10 to the Stipulated Record (Doc. No. 2410) is a true and accurate copy of BCS’ Teacher
Contract.
123. To be a teacher at BCS, one must affirm that
“he/she is a ‘Born Again’ Christian who knows the
Lord Jesus Christ as Savior.” SR, Ex. 10 (Doc. No.
24-10, PageID# 410 – 411 (BDS000059 – 61)).
124. Every employee of BCS “[m]ust be born again”
and “[m]ust be an active, tithing member of a
Bible believing church.” SR, Ex. 11 (Doc. No. 2411, PageID# 424 (BDS000072)).
125. BCS will not hire teachers who identify as a gender other than on their original birth certificate
or admit such students. SR, Ex. 8 (Doc. No. 24-8,
PageID# 358 (Benjamin 17:2 – 21)).
126. BCS will not hire homosexual teachers. SR, Ex. 8
(Doc. No. 24-8, PageID# 357; 386 (Benjamin 16:11
– 19; 45:4 – 17)).

90
127. If BCS did not have to make any changes in how
it operates, it would consider accepting public
funds for tuition purposes. SR, Ex. 8 (Doc. No. 248, PageID# 359; 380; 386 – 387 (Benjamin 18:18
– 25.; 39:10 – 17; 45:22 – 46:3)).
128. There is no way to predict whether Crosspoint
Church’s Deacon Board would approve or disapprove accepting public funds for tuition purposes,
although, all things being equal, accepting public
funds for tuition purposes is something BCS
would consider. SR, Ex. 8 (Doc. No. 24-8, PageID#
387 – 388 (Benjamin 46:1 – 47:1)).
129. It would be futile for BCS to seek from the State
approval to accept public funds for tuition purposes because BSC is a sectarian school for purposes of 20-A M.R.S.A. 2951(2). SR, Ex. 4 (Doc.
No. 24-4, PageID# 228 (RFA 4)).
Facts Relating to Temple Academy
130. Temple Academy is a sectarian school for purposes of 20-A M.R.S.A. § 2951(2) and thus cannot
be approved for tuition purposes. SR, Ex. 4 (Doc.
No. 24-4, PageID# 228 (RFA 5)).
131. Temple Academy is accredited by the NEASC.
SR, Ex. 24 (Doc. No. 24-24, PageID# 746 – 747
(LaFountain 60:19 – 61:10)).
132. The Department of Education considers Temple
Academy to be a “private school recognized by the
department as providing equivalent instruction”
pursuant to 20-A M.R.S.A. § 5001-A(3)(A)(1)(b).
Doc. No. 8, PageID# 43 (Ans. ¶ 39).

91
133. Temple Academy is affiliated with Centerpoint
Community Church. SR, Ex. 24 (Doc. No. 24-24,
PageID# 699 (LaFountain 13:17 – 20)).
134. Temple Academy is an “integral ministry” and essentially an “extension” of Centerpoint Community Church. SR, Ex. 24 (Doc. No. 24-24, PageID#
735 – 736 (LaFountain 49:24 – 50:13)); SR, Ex. 28
(Doc. No. 24-28, PageID# 792 (TA000016)).
135. The governing body for Temple Academy is Centerpoint Community Church’s Board of Deacons.
SR, Ex. 24 (Doc. No. 24-24, PageID# 700 – 701;
702 (LaFountain 14:22 – 15:1; 16:17 – 21)).
136. All members of Centerpoint Community
Church’s Board of Deacons are members of Centerpoint Community Church. SR, Ex. 24 (Doc. No.
24-24, PageID# 706 (LaFountain 20:22 – 25)).
137. While Temple Academy has a school board, it is
only advisory – it has no authority over the curriculum. SR, Ex. 24 (Doc. No. 24-24, PageID# 701
(LaFountain 15:2 – 12)).
138. Temple Academy’s school board operates entirely
under the authority of Centerpoint Community
Church’s Board of Deacons. SR, Ex. 28 (Doc. No.
24-28, PageID# 794 (TA000018)).
139. The superintendent of Temple Academy is the
lead pastor of Centerpoint Community Church.
SR, Ex. 24 (Doc. No. 24-24, PageID# 702 – 703;
704 (LaFountain 16:22 – 17:6; 18:1 – 4)).
140. Centerpoint Community Church’s Board of Deacons has the authority to dictate the curriculum

92
for the school. SR, Ex. 24 (Doc. No. 24-24,
PageID# 704 (LaFountain 18:16 – 25)).
141. Temple Academy agrees that there is a “big difference” between private schools and private
Christian schools. SR, Ex. 24 (Doc. No. 24-24,
PageID# 715 (LaFountain 29:4 – 10)).
142. Exhibit 28 to the Stipulated Record (Doc. No. 2428) is a true and accurate copy of Temple Academy’s Student/Parent Handbook.
143. Temple Academy’s mission is “to know the Lord
Jesus Christ and to make Him known through
accredited academic excellence and programs
presented through [Temple Academy’s] thoroughly Christian Biblical world view.” SR, Ex. 28
(Doc. No. 24-28, PageID# 791 (TA000015)).
144. Temple Academy’s educational philosophy “is
based on a thoroughly Christian and Biblical
world view,” and a “world view” “is a set of assumptions that one holds about the basic makeup
of his world and forms the basis for all that one
does and thinks.” SR, Ex. 28 (Doc. No. 24-28,
PageID# 791 (TA000015)).
145. Among Temple Academy’s objectives are to 1)
“foster within each student an attitude of love
and reverence of the Bible as the infallible, inerrant, and authoritative Word of God;” 2) “teach
the fundamental doctrines of the historic Christian faith;” 3) “develop within each student a biblically-based morality;” and 4) “aid families in
making their homes Christ-centered.” SR, Ex. 28
(Doc. No. 24-28, PageID# 792 – 793 (TA000016 –
17)).

93
146. Temple Academy’s “academic growth” objectives
are to 1) “provide a sound academic education in
which the subjects areas are taught from a Christian point of view”; 2) “help every student develop
a truly Christian world view by integrating studies with the truths of Scripture”; and 3) “promote
excellence and competence in communication
and computational skills.” SR, Ex. 28 (Doc. No.
24-28, PageID# 792 – 793 (TA000016 – 17)).
147. Temple Academy seeks “to lead every student to
a personal, saving knowledge of Christ.” SR, Ex.
28 (Doc. No. 24-28, PageID# 796 (TA000020)).
148. Exhibit 26 to the Stipulated Record (Doc. No. 2426) is a true and accurate copy of Temple Academy’s Admissions Policy.
149. Exhibit 32 to the Stipulated Record (Doc. No. 2432) is a true and accurate copy of a brochure Temple Academy provides to prospective students
and their parents.
150. Exhibit 33 to the Stipulated Record (Doc. No. 2433) is a true and accurate copy of a letter Temple
Academy sends to parents enclosing an application packet.
151. Temple Academy’s admission policy states that it
does not discriminate on the basis of race, color,
or national or ethnic origin, but it is silent with
respect to whether it discriminates on the basis
of gender, gender-identity, sexual orientation, or
religion. SR, Ex. 26 (Doc. No. 24-26, PageID# 776
(TA00003)); SR, Ex. 28 (Doc. No. 24-28, PageID#
796 (TA000020)); SR, Ex. 32 (Doc. No. 24-32,
PageID# 898 (TA000061)).

94
152. Under Temple Academy’s admission policy, a student would most likely not be accepted if he or
she comes from a family that does not believe
that the Bible is the word of God. SR, Ex. 24 (Doc.
No. 24-24, PageID# 721 – 722 (LaFountain 35:20
– 36:8)).
153. Temple Academy has a “pretty hard lined” written policy that states that only Christians will be
admitted as students, though exceptions have
been made, and might be made in the future, to
admit students of different faiths. SR, Ex. 24
(Doc. No. 24-24, PageID# 749; 748 (LaFountain
63:9 – 23; 62:14 – 17)).
154. There are currently, and have been in the past,
students who attend Temple Academy who are
not necessarily Christians but who have said
they support the school’s Statement of Faith. SR,
Ex. 24 (Doc. No. 24-24, PageID# 715; 717; 719
(LaFountain 29:18 – 21; 31:11 – 16; 33:11 – 22)).
155. Under Temple Academy’s written admission policy, “students from homes with serious differences with the school’s biblical basis and/or its
doctrines will not be accepted.” SR, Ex. 24 (Doc.
No. 24-24, PageID# 723 (LaFountain 37:9 – 14));
SR, Ex. 26 (Doc. No. 2426, PageID# 776
(TA000003)).
156. Temple Academy believes that a Muslim family
would have serious differences with Temple
Academy’s biblical basis and its doctrines. SR,
Ex. 24 (Doc. No. 24-24, PageID# 723 (LaFountain
37:20 – 24)).

95
157. Temple Academy will not admit a student who is
homosexual, though there are students presently
enrolled who “struggle” with homosexuality. SR,
Ex. 24 (Doc. No. 24-24, PageID# 725 (LaFountain
39:6 – 14)).
158. A child who identifies with a gender that is different than what is listed on the child’s original
birth certificate would not be eligible for admission to Temple Academy. SR, Ex. 24 (Doc. No. 2424, PageID# 726 (LaFountain 40:4 – 8)).
159. Temple Academy will not admit a child who lives
in a two-father or a two-mother family. SR, Ex. 24
(Doc. No. 24-24, PageID# 727 (LaFountain 41:16
– 20)).
160. Exhibit 30 to the Stipulated Record (Doc. No. 2430) is a true and accurate copy of Temple Academy’s Family Covenant.
161. As a condition of enrollment to Temple Academy,
the student’s parents must sign a Family Covenant in which they affirm that they are in agreement with Temple Academy’s views on abortion,
the sanctity of marriage, and homosexuality and
in which they acknowledge that Temple Academy
may request that the student withdraw if “the
student does not fit into the spirit of the institution regardless of whether or not he/she conforms
to the specific rules and regulations.” SR, Ex. 24
(Doc. No. 24-24, PageID# 743 (LaFountain 57:19
– 22)); SR, Ex. 30 (Doc. No. 24-30, PageID# 872
(TA000068)).
162. As a condition of enrollment to Temple Academy,
students in grades 7 to 12 must sign a covenant

96
in which the student affirms that he or she “will
seek at all times, with the help of the Holy Spirit,
to live a godly life in and out of school in order
that Jesus Christ will be glorified.” SR, Ex. 24
(Doc. No. 24-24, PageID# 745 – 746 (LaFountain
59:21 – 60:16)); SR, Ex. 30 (Doc. No. 24-30,
PageID# 872 (TA000068)).
163. Students at Temple Academy are required to attend a religious service once a week. SR, Ex. 24
(Doc. No. 24-24, PageID# 727 – 728 (LaFountain
41:25 – 42:4)).
164. Temple Academy provides a “biblically-integrated education,” which means that the Bible is
used in every subject that is taught. SR, Ex. 24
(Doc. No. 24-24, PageID# 728 (LaFountain 42:14
– 20)).
165. The Bible is integrated into subjects like math
because Temple Academy believes a creator designed the universe such that “one plus one is
always going to be two.” SR, Ex. 24 (Doc. No. 2424, PageID# 728 – 729 (LaFountain 42:19 – 25;
43:6 – 8)).
166. Bible verses are not integrated into subjects like
math. Rather, “it’s algebra, it’s pre-cal, calculus,
just like you’d see in any high school across America.” SR, Ex. 24 (Doc. No. 24-24, PageID# 729
(LaFountain 43:1 – 11)).
167. Exhibit 29 to the Stipulated Record (Doc. No. 2429) is a true and accurate copy of Temple Academy’s Faculty Handbook.
168. Temple Academy teachers “are expected to integrate Biblical principles with their teaching in

97
every subject taught at Temple Academy.” SR, Ex.
29 (Doc. No. 24-29, PageID# 862 (TA000130)).
169. Temple Academy teaches children that the Bible
is the Word of God, that it is infallible, and that it
should be obeyed in every aspect of life. SR, Ex.
24 (Doc. No. 24-24, PageID# 721 (LaFountain
35:1 – 9)).
170. Temple Academy teaches students that they
should obey the Bible in their daily lives. SR,
Ex. 24 (Doc. No. 24-24, PageID# 729 (LaFountain
43:23 – 25)).
171. Temple Academy teaches students that they
should attempt to spread the word of Christianity. SR, Ex. 24 (Doc. No. 24-24, PagerD# 730
(LaFountain 44:1 – 3)).
172. Temple Academy teaches students that a “proper
marriage” is between a man and a woman. SR,
Ex. 24 (Doc. No. 24-24, PageID# 735 (LaFountain
49:10 – 18)).
173. Temple Academy strives to “mold” students to be
“Christlike.” SR, Ex. 24 (Doc. No. 2424, PageID#
736 – 737 (LaFountain 50:18 – 51:2)).
174. Temple Academy promotes to students that they
should obey the Bible, accept that the Bible is the
Word of God, and to accept Christ as their personal savior. SR, Ex. 24 (Doc. No. 24-24, PageID#
737 (LaFountain 51:3 – 23)).
175. Exhibit 27 to the Stipulated Record (Doc. No. 2427) is a true and accurate copy of Temple Academy’s Teacher Employment Agreement.

98
176. Affirming that “he/she is a born-again Christian
who knows the Lord Jesus Christ as Savior” is a
necessary qualification to be a teacher at Temple
Academy. SR, Ex. 24 (Doc. No. 24-24, PageID# 731
(LaFountain 45:3 – 11)); SR, Ex. 27 (Doc. No. 2427, PageID# 782 (TA000092)).
177. Homosexuals are not eligible for employment as
teachers at Temple Academy. SR, Ex. 24 (Doc. No.
24-24, PagerD# 732 (LaFountain 46:7 – 9)); SR,
Ex. 27 (Doc. No. 24-27, PageID# 783 (TA000093)).
178. Temple Academy’s Teacher Employment Agreement states that the Bible says that “God recognize[s] homosexuals and other deviants as
perverted” and that “[s]uch deviation from Scriptural standards is grounds for termination.” SR,
Ex. 27 (Doc. No. 24-27, PageID# 783 (TA000093)).
179. A person must be a born-again Christian to be eligible for all staff positions at Temple Academy,
including custodial positions. SR, Ex. 24 (Doc. No.
24-24, PageID# 748 – 749 (LaFountain 62:21 –
63:1)).
180. Temple Academy does not know whether it would
accept public funding for tuition purposes – it
would have to see whether there were strings attached and it does not know enough now to say
yes. SR, Ex. 24 (Doc. No. 24-24, PageID# 710
(LaFountain 24:4 – 22)).
181. If Temple Academy could become eligible to accept public funding for tuition purposes with no
strings attached, Temple School would have to
see it in writing. SR, Ex. 24 (Doc. No. 24-24,
PageID# 711 (LaFountain 25:7 – 12)).

99
182. Before accepting public funds for tuition purposes, Temple Academy would want to have in
writing that the school would not have to alter its
admissions standards, hiring standards, or curriculum, and if it had that in writing, Temple
Academy would consider accepting public funds
for tuition purposes. SR, Ex. 24 (Doc. No. 24-24,
PageID# 751 (LaFountain 65:4 – 25)).
183. If in order to receive public funds for tuition purposes Temple Academy could no longer require
that teachers be born-again Christians, Temple
Academy would refuse to accept public money.
SR, Ex. 24 (Doc. No. 24-24, PageID# 732 (LaFountain 46:1 – 6)).
184. Temple Academy would not take public money for
tuition purposes if it was conditioned on Temple
Academy no longer being able to exclude homosexuals from employment as teachers. SR, Ex. 24
(Doc. No. 24-24, PagerD# 732 (LaFountain 46:7 –
14)).
185. It would be futile for Temple Academy to seek
from the State approval for tuition purposes because Temple Academy is a sectarian school for
purposes of 20-A M.R.S.A. 2951(2). SR, Ex. 4 (Doc.
No. 24-4, PageID# 228 (RFA 5)).
Facts Regarding Attorney General Opinion 80-2
186. Maine’s Attorney General authored opinion 80-2.
187. Exhibit 1 to the Stipulated Record (Doc. No. 241) is a true and accurate copy of the Maine Attorney General’s opinion 80-2.

100
188. After the date of the Attorney General’s opinion,
legislation was passed that ultimately became
the provision currently codified at 20-A M.R.S.A.
§ 2951(2).
Facts Regarding Bill to Allow Sectarian Schools
to be Approved for the Receipt of Public Funds
189. In 2003, a bill – LD 182 (“An Act to Eliminate Discrimination Against Parents Who Want to Send
Their Children to Religious Private Schools,”
121st Legis. (2003)) – was introduced to repeal
20-A M.R.S. § 2951(2), the provision that allows
only nonsectarian schools to be approved for the
receipt of public funds for tuition purposes.
190. Exhibit 2 to the Stipulated Record (Doc. No. 242) contains a true and accurate copy of LD 182 at
PageID# 183 – 184.
191. On May 13, 2003, the Maine House of Representatives debated LD 182. Legis. Rec., May 13, 2003,
at H-582 to H-589. SR, Ex. 2 (Doc. No. 24-2,
PageID# 185 – 201).
192. Exhibit 2 to the Stipulated Record (Doc. No. 242) contains a true and accurate copy of the Legislative Record of the House debate that occurred
on May 13, 2003 at PageID# 185 – 201.
193. The Legislative Record from the May 13, 2003 debate on LD 182 attributes the following statement to Representative Fischer in opposition to
the bill:
Mr. Speaker, I submit to you and to this body
that there are a number of reasons why this

101
bill should be rejected. These reasons are
compelling and have at their root the sovereign prerogative of the people of the State of
Maine regarding how public funds can and
should be used in supporting public education for the children of this state.
***
Mr. Speaker, I submit it is fundamentally
wrong for us to fund discrimination, but that
is exactly what this bill calls for. Private religious schools freely admit that they do not
hire individuals whose beliefs are not consistent with the school’s religious teachings.
***
Ladies and gentlemen of the House, I ask you
to consider this question, can private religious schools discriminate against citizens of
the State of Maine, including even members
of this body, because of their religious beliefs? Yes, they can. Is it right for them to do
this with our tax money? No, it is not.
Ladies and gentlemen of the House, do you
want to take our preciously limited resources
and promote discrimination?
H-582-83. SR, Ex. 2 (Doc. No. 24-2, PageID# 186 – 187
(D000023 – D000024)).
194. The Legislative Record from the May 13, 2003 debate on LD 182 also attributes the following
statement to Representative Fischer in opposition to the bill:

102
Entanglement would mean that if we were to
give money to private religious schools, we
would have a responsibility to them, to make
them accountable in some way. How are we
going to make private religious schools who
teach religion in the classroom accountable
to standards in the State of Maine that do
not include any sort of religion in them? How
do we reconcile that? There is no answer for
that. You can’t reconcile. Our public schools
are not allowed to teach religion.
Private religious schools can. You can’t get
from one to the other. That is the first thing,
entanglement.
The second one is something that I am sure
there are members of this body who would be
very concerned about. It is about hiring policies. My father, for instance, is a professor. He
has his doctorate. He has taught for 40 years
now. He cannot get a job at St. Doms Academy. You know why? He is not a Christian.
That is fine, but I am telling you if you can
discriminate against people on that basis,
what does that say. If you receive public
money, you are going to be accountable to
public laws. I am a Christian. I could get a
job at St. Doms. Go figure. The point is you
are going to have a firewall there, as the good
Representative from Portland said. You are
suddenly going to have to open yourself up to
the laws of the State of Maine if you receive
public money. I don’t think from the testimony that we received from directors of
Christian schools across the State of Maine

103
that that is something that they are willing
to accept. They said that they hire based on
whether a person’s beliefs are the same as
ours. That is a direct quote. You ask any
member of the Education Committee, even
folks on the Minority Report. They will tell
you that that is the truth.
How do you explain to my father that he is a
professor and he is the most qualified person
for a job that you are not going to hire him
because he is not a Christian? That is not
what we believe in in this state. We had a big
discussion yesterday, if you remember, about
our terms of employment. Our terms of employment in this state are at will. We are a
state that believes and we say every single
day when you get a job that we don’t discriminate on the basis of, and you put the list
right through. That is our state. It is in our
Human Rights Act. It is in the US Civil
Rights Act. If someone can explain to me how
we aren’t going to make private religious
schools accountable for their hiring practices, then I will vote against this bill too.
H-586-87. SR, Ex. 2 (Doc. No. 24-2, PageID# 195 – 196
(D000032 – D000033)).
195. The Legislative Record from the May 13, 2003 debate on LD 182 attributes the following statement to Representative Cummings in opposition
to the bill:
If we were to move in the direction of religious vouchers at this time in our history, we
would effectively be giving up the rights for

104
the education of our children to entities
whose overwhelming mission is religious.
You do not have to be opposed to religious entities having that kind of control. In our decision today, we have to believe that children
are better supported by the public schools
with public money. If you choose to do otherwise, then let it be with private money.
H-584. SR, Ex. 2 (Doc. No. 24-2, PageID# 190
(D000027)).
196. The Legislative Record from the May 13, 2003
debate on LD 182 attributes the following statement from Representative Cummings in opposition to the bill:
From a public policy position, we must believe that a religiously neutral classroom is
the best if funded by public dollars. It is the
foundation of our religious agreements to expect diversity in a situation.
***
Our purpose here today is as policy makers
we provide an opportunity for the people of
Maine to continue their religious avocations
and their religious pursuits, but not with
public money for the many reasons you have
heard today. Yes, in fact, there is, of course,
discrimination in religious institutions. I defend their right to do so, but not with my dollar.
H-587. SR, Ex. 2 (Doc. No. 24-2, PageID# 197 – 198
(D000034 – D000035)).

105
197. The Legislative Record from the May 13, 2003 debate on LD 182 attributes the following statement from Representative Glynn in support of
the bill: “This bill is a step toward ending discrimination against parents who wish to send their
children to religious or private schools.” SR, Ex. 2
(Doc. No. 24-2, PageID# 185 (D000022)).
198. The Legislative Record from the May 13, 2003 debate on LD 182 attributes the following statement from Representative Snowe-Mello: “Many
of our religious schools do an excellent job a[t]
teaching our young people.” SR, Ex. 2 (Doc. No.
24-2, PageID# 194 (D000031)).
199. On May 14, 2003, the Maine Senate debated LD
182. Legis. Rec., May 14, 2003, at S629, 640-41.
200. Exhibit 2 to the Stipulated Record (Doc. No. 242) contains a true and accurate copy of the Legislative Record of the Senate debate that occurred
on May 14, 2003 at PageID# 202 – 205.
201. The Legislative Record from the May 14, 2003 debate on LD 182 attributes the following statement to Senator Martin in opposition to the bill:
Because we retain a responsibility of a publicly funded education, we must look carefully at what we believe is an appropriate
form of education for our children. I submit
that our publicly funded education system
works best when the education is one of diversity and assimilation. An educational
system that promotes tolerance and assimilation by educating all of our children together, without regard to religious affiliation

106
and without promoting religious view points,
is preferred. Non-religious publicly funded
education has been the norm in Maine and
elsewhere in our country, and the ‘melting
pot’ effect of this, on our children is what
makes this state and this country great. Religious neutrality in the classroom is best.
Bringing all of our children together, no matter what their religious affiliation or background, promotes democracy, tolerance, and
what is best in all of us.
The alternative offered by this bill, I submit,
is contrary to that preferred approach. The
bill could create and promote ‘separate and
sectarian’ educational systems.
Fifty years ago, the Supreme Court rejected
as unconstitutional publicly funded ‘separate
but equal schools,’ where the education system funded separate schools based on race.
The bill would have us fund ‘separate and
sectarian’ schools where the educational system funds separate schools based on religion.
While citizens most certainly have the right
to attend those schools, I do not believe that
we should spend our tax dollars to fund the
schools. Rather, we should use our limited
dollars for schools, whether the public or private under our tuition programs, that are
non-religious and that are neutral on religion.
Not only is this bill bad public policy, it is
bad governmental policy. Government and
religion should be separate. Separation of

107
church and state is firmly established in this
state and country. It is appropriate and necessary for the Department of Education and
local education officials to ensure that what
is being taught at publicly funded elementary and secondary schools is in keeping
with the appropriate cultural morals and
values of America. That can be done at public
schools and private non-religious schools
that receive public funding.
The proponents of the bill would demand
public funds for private religious schools because, under the tuition program, public
funds can be used for private nonreligious
schools. But the non-religious schools are
just like public schools in that they are religiously neutral and can be held accountable.
Government officials can review what is being taught in private non-religious schools to
make sure what is taught is appropriate and
not anti-American. Government officials cannot, and should not, review the religious
teachings of religious schools, but that is exactly what we will be funding, religious
teachings. The public funds could be used to
teach intolerant religious views, but we could
not review those without approving or disapproving of a religion. The government does
not approve or disapprove of religious teachings, and everyone must agree that we
should not fund anti-American teaching in
the classroom. Since we cannot hold religious
schools accountable for what they teach, we
should not fund them.

108
S-640. SR, Ex. 2 (Doc No. 24-2, PageID# 204 – 205
(D000041 – D000042)).
202. The Legislative Record records that majorities in
both the House of Representatives and the Senate voted against LD 182, and the bill was thus
not enacted into law.
Date: March 15, 2019

Respectfully submitted,

/s/ Christopher Taub
Christopher C. Taub
Sarah A. Forster
Assistant Attorneys General
Office of the
Attorney General
State House Station 6
Augusta, ME 04333
Telephone: (207) 626-8800
Email: christopher.C.Taub
@maine.gov
sarah.forster@maine.gov

/s/ Timothy D. Keller
Timothy D. Keller*
(AZ Bar No. 019844)
Institute for Justice
398 S. Mill Avenue,
Suite 301
Tempe, AZ 85281
Tel: (480) 557-8300
Fax: (480) 557-8315
Email: tkeller@ij.org

Arif Panju*
(TX Bar No. 24070380)
Attorneys for Defendant
Institute for Justice
816 Congress Avenue,
/s/ Jeffrey T. Edwards
Suite 960
Jeffrey T. Edwards
Austin,
TX 78701
PretiFlaherty
Tel: (512) 480-5936
One City Center
Fax: (512) 480-5937
P.O. Box 9546
Portland, ME 04112-9546 Email: apanju@ij.org
Tel: (207) 791-3000
Fax: (207) 791-3111
Email: jedwards@preti.com
Local Counsel for
Plaintiffs

109
Lea Patterson*
(TX Bar No. 24102338)
First Liberty Institute
2001 W. Plano Parkway,
Suite 1600
Plano, TX 75075
Tel: (972) 941-4444
Fax: (972) 423-6162
Email: lepatterson@
firstliberty.org
Michael K. Whitehead*
(MO Bar No. 24997)
Jonathan R. Whitehead*
(MO Bar No. 54868)
Whitehead Law Firm, LLC
229 SE Douglas St.,
Suite 210
Lee’s Summit, MO 64063
Tel: (816) 398-8967
Fax: (816) 875-3291
Email: mike@
thewhiteheadfirm.com
Email: jon@
whiteheadlawllc.com
Attorneys for Plaintiffs
*Admitted pro hac vice

110
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that on this 15th day of
March, 2019, a true and correct copy of JOINT STIPULATED FACTS was filed and served on the following counsel of record using the Court’s CM/ECF
system:
Aaron M. Frey
Attorney General
Sarah A. Forster
Christopher C. Taub
Assistant Attorneys General
Office of the Attorney General
Six State House Station
Augusta, ME 04333-0006
Tel: (207) 626-8866, (207) 626-8800
Email: sarah.forster@maine.gov
Christopher.C.Taub@maine.gov
Attorneys for Defendant
/s/ Timothy D. Keller
Timothy D. Keller
Attorney for Plaintiffs

